U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                                Review of the
                             USAOs’ and EOUSA’s
                             Disciplinary Process
                                      February 2014




                                       I-2014-001
                            EXECUTIVE SUMMARY


INTRODUCTION

       The U.S. Attorneys are the principal litigators for the
U.S. government and oversee the operations of the 94 United States
Attorney’s Offices (USAO) located throughout the United States and its
territories. The Executive Office for U.S. Attorneys (EOUSA) acts as a
liaison between the headquarters of the Department of Justice
(Department) and the USAOs and provides management oversight and
administrative support to the USAOs. In this review, the Office of the
Inspector General (OIG) evaluated the consistency, timeliness, and
outcomes of the four phases of the discipline process of the USAOs and
EOUSA, including the reporting and investigation of alleged misconduct,
the adjudication of misconduct cases, and the implementation of the
discipline imposed.

RESULTS IN BRIEF

      Overall, we found that some aspects of the USAO and EOUSA
discipline system worked well, but improvement is needed.

       EOUSA is hampered in its ability to fully evaluate the
disciplinary process and ensure that discipline decisions are
consistent and reasonable. We found that case file documentation on
misconduct cases was not centrally located and the files that do exist are
incomplete. No one entity in EOUSA has the responsibility or authority
to maintain a complete, centralized case file that includes all documents
relevant to the disciplinary process, from the reporting, inquiry, and
adjudication of misconduct allegations through the implementation of
penalties for those allegations determined to be actual misconduct. As a
result, EOUSA could not easily determine the actual number of
misconduct cases for all the USAOs and EOUSA, how many misconduct
allegations were referred to the OIG and the Department’s Office of
Professional Responsibility (OPR), whether penalties were implemented,
or more generally evaluate disciplinary trends and problems or the
efficacy of the disciplinary process itself. Additionally, the lack of
documentation limited the ability of EOUSA’s General Counsel’s Office
(GCO) to conduct comprehensive searches and analyses of case
precedents.




U.S. Department of Justice                                                i
Office of the Inspector General
Evaluation and Inspections Division
       USAO and EOUSA reporting, inquiry, and adjudication of
misconduct and the implementation of penalties were generally
consistent and do not appear to be unreasonable for the cases we
were able to evaluate. Our review of the inquiry, adjudication, and
implementation phases of the disciplinary process was limited by a lack
of documentation in the case files. From our review of the
documentation in the files, it appeared that the USAOs and EOUSA
consistently reported misconduct to GCO and that GCO appropriately
referred those allegations to the OIG and OPR when necessary. We also
determined that the nature of USAO and EOUSA inquiries varied within
offense types. However, we did not find that the differing levels of inquiry
and documentation of the inquiry were unreasonable based on the
individual case circumstances as we were able to determine them.
Similarly, in the case files with sufficient information, we found that
adjudications varied across offense types, but we generally did not find
that the results reached were unreasonable based on the evidence and
facts of the cases we were able to review. We also found that the USAOs
and EOUSA were implementing penalties consistently. However, we
could not conclude that these findings would be consistent across the
USAOs because some of the case files we reviewed had insufficient
information to draw any conclusions. We also conducted an in-depth
review, discussed below, of sexual harassment and computer misuse
allegations.

       The USAOs and EOUSA were consistent in applying formal
discipline for computer misuse involving pornography and informal
penalties for the first-time offenses of computer misuse involving
adult images.1 We found that the handling of allegations of computer
misuse involving pornography and allegations involving adult images was
consistent and reasonable. The OIG believes these two serious offense
types had consistent penalties in part because the cases were supported
by concrete evidence of misconduct. In addition, EOUSA developed
directives and policy to address these offenses. Further, GCO developed
a table of cases and outcomes specifically applicable to these types of
computer misuse to aid GCO attorneys when advising the USAOs on
appropriate penalties.




       1  DOJ Order 2740.1A prohibits the creation, download, viewing, storage,
copying, or transmission of sexually explicit or sexually oriented materials. GCO
categorizes these activities as two types of offenses: “computer misuse – pornography”
and “computer misuse – adult images.” Adult images include material that has sexual
content or that is sexually suggestive but not within the definition pornography.


U.S. Department of Justice                                                               ii
Office of the Inspector General
Evaluation and Inspections Division
       The lack of centralized documentation hampered our ability to
assess the handling of sexual harassment allegations. While EOUSA
policy directs the USAOs to memorialize the initial complaint and
inquiry, we could not find this documentation in almost half of the GCO
case files for allegations of sexual harassment. Consequently, it was
difficult to evaluate the inquiries and outcomes reached, and whether
they were done within the time period designated by EOUSA policy for
such cases. This also made it difficult to determine what was alleged to
have occurred and whether the allegations were substantiated after the
inquiries. In the limited number of cases where there was sufficient
documentation for us to evaluate the adjudication, we did not find the
outcomes reached to be unreasonable based on the facts and
circumstances available in the record. However, the lack of
documentation in sexual harassment cases also could limit the ability of
EOUSA to use these cases as precedent for future disciplinary decisions.

       The USAOs and EOUSA are consistent in employing
progressive discipline to address misconduct. We found that the
USAOs and EOUSA employed progressive discipline consistently. GCO
advised supervisors to use the lowest level discipline that would correct
the misconduct or behavior and to progressively increase the penalty as
misconduct continued. However, due to a lack of documentation in the
case files, we were unable to determine if the suspensions or removals
called for by the disciplinary process actually were imposed in 40 percent
of those cases.

       The USAOs and EOUSA have no specific timeliness standards
to measure the performance of the disciplinary process and do not
document the time taken by the process. While the Department does
not require components to meet specific timeliness goals, it is important
to ensure discipline cases are investigated and adjudicated in a
reasonable amount of time. The lack of documentation in the discipline
case files hindered our timeliness analyses. However, in the cases with
sufficient information to review, we found that the USAOs and EOUSA
were investigating and adjudicating misconduct cases in times
comparable to the timeliness standard set by the Department’s law
enforcement components. The median time to adjudicate misconduct
cases from open to close was 144 days for all cases resulting in formal
discipline and 43 days for all cases resulting in informal discipline. By
comparison, the Department’s law enforcement components generally
have a goal to complete such investigations and adjudications within 120
to 180 days.




U.S. Department of Justice                                              iii
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

       We make four recommendations in this report to improve the
USAOs’ and EOUSA’s management of the disciplinary process. We
recommend that EOUSA delegate responsibility for maintaining complete
misconduct case files that include a statement of substantiation or a
report memorializing the findings of the inquiry and set timeliness goals
for the inquiry and adjudication of misconduct cases. In addition, GCO
should create and maintain an updated table of case precedents for
sexual harassment and other serious misconduct offenses, and establish
and implement data controls in its misconduct case file management
system.




U.S. Department of Justice                                             iv
Office of the Inspector General
Evaluation and Inspections Division
                                TABLE OF CONTENTS


 BACKGROUND ................................................................................. 1

 SCOPE AND METHODOLOGY OF THE OIG REVIEW....................... 10

 RESULTS OF THE REVIEW ............................................................. 12

 CHAPTER I: INCOMPLETE MISCONDUCT CASE FILES .................. 12

 CHAPTER II: EVALUATION OF THE DISCIPLINARY PROCESS ....... 18

 CHAPTER III: TIMELINESS OF DISCIPLINARY PROCESS ............... 38

 CONCLUSION AND RECOMMENDATIONS ...................................... 42

 APPENDIX I: RELATED OIG REPORTS ........................................... 45

 APPENDIX II: DOUGLAS FACTORS ................................................ 46

 APPENDIX III: METHODOLOGY ..................................................... 48

 APPENDIX IV: DATA ON USAO AND EOUSA MISCONDUCT CASES
   AND DISCIPLINE, FY 2009 THROUGH FY 2011.......................... 53

 APPENDIX V: LIST OF ACRONYMS ................................................ 56

 APPENDIX VI: EOUSA RESPONSE TO DRAFT REPORT .................. 57

 APPENDIX VII: OIG ANALYSIS OF EOUSA’S RESPONSE ................ 61




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND


Introduction

       Federal agencies have the duty to maintain an orderly and
productive work environment to ensure their missions are carried out in
an efficient and effective manner. Federal employees are properly held to
the highest standards of integrity and conduct to maintain the
confidence and trust of the public they serve. To maintain these
standards, federal agencies establish disciplinary systems that address
and correct employee misconduct and communicate to employees which
behavior is not acceptable. The system should be implemented
uniformly and result in disciplinary decisions that are consistent and
reasonable.

       Since disciplinary systems play a significant role in ensuring the
efficiency of government services and fair and equitable treatment of all
covered employees, the Office of the Inspector General (OIG) has
performed five reviews assessing the disciplinary systems of the
Department of Justice (Department) law enforcement components: the
Bureau of Alcohol, Tobacco, Firearms and Explosives; the Drug
Enforcement Administration; the Federal Bureau of Prisons; the Federal
Bureau of Investigation; and the U.S. Marshals Service.2 In this review,
we assessed the consistency, timeliness, and outcomes of the four
phases of the discipline process of the U.S. Attorney’s Offices (USAO) and
the Executive Office for U.S. Attorneys (EOUSA): (1) the reporting of
alleged misconduct to the EOUSA General Counsel’s Office (GCO) and
from GCO to OIG and the Office of Professional Responsibility (OPR),
(2) the investigation or inquiry into the alleged misconduct, (3) the
adjudication of misconduct, and (4) the implementation of the discipline
imposed for misconduct by USAO and EOUSA employees.3 We also
evaluated whether the processes for investigations and adjudications
were complete and objective.



       2   See Appendix I for a list of the five previous OIG reports and other related
reports.

       3  We defined consistency as whether a disciplinary system processed similar
misconduct cases using uniform standards and whether similar penalties were imposed
for similar misconduct. We considered outcomes not to be unreasonable if the record
as a whole contained sufficient evidence to allow a reasonable person to support the
same conclusion, even though another reasonable person might have reached a
different conclusion.


U.S. Department of Justice                                                                1
Office of the Inspector General
Evaluation and Inspections Division
USAOs and EOUSA

      The U.S. Attorneys are the principal litigators for the
U.S. government and oversee the operations of the 94 USAOs located
throughout the United States and its territories. EOUSA acts as a liaison
between the Department and the USAOs, and also provides them with
management oversight and administrative support. The EOUSA GCO
consults with and provides advice to USAO and EOUSA managers on
addressing employee misconduct. It offers guidance on the disciplinary
process, including researching precedent and appropriate penalties, but
disciplinary outcomes are decided by managers in the individual USAOs
and EOUSA.4 In fiscal year (FY) 2012, the USAOs and EOUSA had
12,379 authorized positions for attorneys and support personnel, and a
combined FY 2012 enacted budget of $1.96 billion.

Legal Foundation for the Disciplinary System

       The laws and regulations establishing the legal framework
governing the discipline of most employees in the federal service,
including USAO and EOUSA employees, are in 5 U.S.C. Chapter 75 and
5 C.F.R. Part 752.5 Additional policies and procedures directing how the
Department handles discipline and adverse actions are in Department of
Justice (DOJ) Order 1200.1.6 This Order outlines the roles and
responsibilities of management officials seeking to impose formal
discipline and delineates the mechanics of the inquiry, notice,
adjudication, and grievance process applicable to most Department
employees. The Order also outlines the rights of employees who appeal
their discipline decision in third party administrative proceedings before
the Merit Systems Protection Board (MSPB) or mediate the decision in

         4GCO also represents the Department in administrative proceedings before the
Merit Systems Protection Board (MSPB) and the U.S. Equal Employment Opportunity
Commission (EEOC). The MSPB is an independent, quasi-judicial agency in the
executive branch that hears appeals of various agency decisions, most of which are
appeals of agencies’ adverse actions in discipline cases. The EEOC is responsible for
enforcing federal laws that make it illegal to discriminate against a job applicant or an
employee because of the person’s race, color, religion, sex (including pregnancy),
national origin, age (40 or older), disability, or genetic information. Most employers
with at least 15 employees are covered by EEOC laws (20 employees in age
discrimination cases). Most labor unions and employment agencies are also covered.
The laws apply to all types of work issues, including hiring, firing, promotions,
harassment, training, wages, and benefits.

         5   5 U.S.C. §§ 7501-7504, 7511-7514 (2009), 5 C.F.R. § 752.201-752.606 (2009).

         6   DOJ Order 1200.1, Chapter 3-1, Discipline and Adverse Actions (August 25,
1998).


U.S. Department of Justice                                                               2
Office of the Inspector General
Evaluation and Inspections Division
binding arbitration. DOJ Order 1200.1 further describes the record
retention and training requirements applicable to the disciplinary
system.

       The U.S. Attorneys’ Manual (USAM) 3-4.000 outlines misconduct
policy and statutes as they relate to USAOs and EOUSA specifically.
USAM 3-4.000 describes the policies and procedures for handling
personnel management issues in the USAOs and EOUSA, and
USAM 3-4.752 specifically delegates authority to certain persons in
USAO and EOUSA executive management to issue, propose, and decide
adverse actions against Assistant U.S. Attorneys (AUSA) and non-
attorney support staff. USAM 3-4.771 further delegates authority to
USAO and EOUSA management officials to receive, refer, and issue
decisions on employee grievances. When viewed together, these
provisions create a system of discipline and adverse actions that defines
the rights of management and employees.

The Discipline Process

     The USAO and EOUSA disciplinary process consists of four
phases: reporting, inquiry or investigation, adjudication, and
implementation, which are discussed below.

Reporting

      Allegations of misconduct can be reported by many sources.
According to the U.S. Attorneys’ Manual, USAO and EOUSA employees
must report all non-frivolous allegations of misconduct to appropriate
USAO and EOUSA officials, such as their supervisors. In the USAOs,
supervisors generally report misconduct to USAO executive management
(which includes the U.S. Attorney, First Assistant U.S. Attorney, and
Executive Assistant U.S. Attorney) and possibly Human Resources.7
USAO executive management then contacts GCO or directs the
supervisor to contact GCO, depending on the type of misconduct alleged
and the type of employee (support staff or attorney). This process can
vary across USAOs. In EOUSA, first- or second-line supervisors report
misconduct up the supervisory chain and contact GCO. Allegations of
computer misuse are usually first identified by the Department’s Justice
Security Operations Center and reported to EOUSA, which in turn
contacts GCO.



       7  There is no requirement to contact Human Resources, but some USAOs may
involve the Human Resources unit in the disciplinary process.


U.S. Department of Justice                                                         3
Office of the Inspector General
Evaluation and Inspections Division
       All non-frivolous allegations of serious misconduct or criminal
activity against USAO and EOUSA employees must also be reported to
the OIG.8 The USAOs or EOUSA may report allegations directly to the
OIG, but usually report to GCO, which then contacts the OIG. When the
OIG receives an allegation of misconduct, it determines whether the
matter is appropriate for investigation by the OIG or declines the referral.
When the OIG declines a referral, it is sent back to the USAO or EOUSA
for their management to determine how to handle the matter.

      Allegations of misconduct involving Department attorneys and law
enforcement personnel that relate to the exercise of their authority to
investigate, litigate, or provide legal advice are, by statute, excluded from
the jurisdiction of the OIG. Instead, such allegations of professional
misconduct are referred to the Department’s OPR.9 USAOs may report a
professional misconduct allegation directly to OPR, attorneys can self-
report to OPR, or USAOs can consult with GCO first and then report the
allegation to OPR. OPR may accept or decline a referral.

Inquiry or Investigation

       For investigations handled by the OIG, if the OIG investigates the
allegations and believes that the misconduct allegation involves potential
criminal activity, the OIG consults with the appropriate prosecutor’s
office to evaluate the possibility of filing criminal charges. If the
prosecutor declines to bring criminal charges, or if the matter involves
non-criminal misconduct allegations, the OIG sends its Report of
Investigation, which contains the OIG’s findings, to the USAO and
EOUSA, which review it for adjudication of discipline.

      For misconduct investigations handled by OPR, OPR may close the
matter without investigation or after a preliminary inquiry if it finds no
misconduct, or OPR may conduct a full investigation. If OPR makes a
finding of professional misconduct involving an attorney from a USAO, it
provides a Report of Investigation to the Department’s Professional



       8  28 C.F.R. Parts 0 and 45 and U.S. Department of Justice, Office of the
Inspector General, Inspector General Manual, Volume III – Investigations, Chapter 205 –
Handling Complaints, Section 205.4, April 22, 2009; see generally the Inspector General
Act of 1978, as amended, 5 U.S.C. App § 8(E)(b)(2) (providing the Inspector General the
authority to investigate any Department employee misconduct).

       9 28 C.F.R. Parts 0 and 45, and the Inspector General Act of 1978, as amended,
5 U.S.C. App § 8E 3(b)(2).



U.S. Department of Justice                                                           4
Office of the Inspector General
Evaluation and Inspections Division
Misconduct Review Unit (PMRU) for adjudication of the case.10 OPR
findings of poor judgment, mistake, or cases in which it makes no
findings are sent back to the USAO for adjudication and determination of
any discipline.

       For investigations that are handled by USAOs or EOUSA,
supervisors may conduct an inquiry to help determine whether
misconduct occurred and whether to discipline an employee. No
Department or EOUSA policies direct that a formal investigation must be
conducted for allegations of misconduct handled at a USAO or EOUSA.
The necessity for and scope of any such inquiry is determined by
supervisors based on the facts and circumstances of each particular
case. The inquiries at USAOs and EOUSA are conducted by supervisors
or may be delegated to a neutral party. For USAOs, this may be an
employee of another USAO and, at EOUSA, it may be another supervisor
in EOUSA. Most misconduct allegations do not require an extensive
investigation or inquiry and are handled by the supervisor, who may
collect evidence such as witness statements, arrest reports, or credit card
statements. GCO may advise on what types of evidence the supervisor
should collect.

Adjudication

       Adjudication is the process by which the evidence supporting
discipline is evaluated and the disciplinary penalty is determined. When
misconduct is substantiated by an inquiry or investigation, it can be
addressed by either informal or formal discipline. DOJ Order 1200.1
requires supervisors to consult with what is referred to as the servicing
personnel office, and EOUSA, before proposing formal discipline, but this
is not required for informal discipline.11 Informal discipline includes oral
counseling, oral admonishment, or a letter of admonishment. Informal

       10  In January 2011, the Department created the PMRU to adjudicate all findings
of professional misconduct arising from the USAOs and the Criminal Division. The
PMRU has the authority to issue, propose, and decide adverse actions for attorneys that
are found to have committed professional misconduct. In the past, OPR referred
findings of professional misconduct back to the USAOs for management to make a
discipline decision. Today, the PMRU makes the discipline decision, but PMRU asks
the USAO for an assessment of the Douglas Factors, and the subjects provide oral and
written replies directly to the PMRU deciding official. (See footnote 12 and Appendix II
for further discussion of the Douglas Factors.)

       11  DOJ Order 1200.1, Chapter 3-1, Discipline and Adverse Actions (August 25,
1998). EOUSA delegates some administrative functions, such as human resources, to
59 USAOs’ Servicing Personnel Offices. The other 35 USAOs utilize the administrative
services at EOUSA.


U.S. Department of Justice                                                             5
Office of the Inspector General
Evaluation and Inspections Division
discipline is usually issued by the first-line supervisor or higher level
management within the USAO or EOUSA.

       Formal discipline has a more structured process than informal
discipline, and the supervisors delegated to adjudicate the discipline
differ for attorney and non-attorney staff. Formal discipline includes a
letter of reprimand (which is considered the lowest form of formal
discipline), suspension, or removal. Suspensions and removals require
that a proposing official issue a proposal letter. The employee then has
the opportunity to provide an oral and a written reply to the deciding
official. The deciding official then weighs all the evidence, the employee’s
reply, and the Douglas Factors to make the ultimate decision about the
penalty.12

      USAM 3-4.752 gives the authority to issue, propose, and decide
formal discipline for attorney misconduct, other than allegations of
professional misconduct, as shown in Table 1.13 As set forth in Table 1,
decisions on the most serious forms of attorney discipline, consisting of
suspensions of 15 days or more, reductions in grade or pay, or removal,
may be proposed by U.S. Attorneys for AUSAs in their offices, but are
decided by higher level management at EOUSA.




       12   Under civil service law, there are 12 factors, known as the Douglas Factors
that should be considered in determining the appropriateness of a disciplinary penalty.
See Douglas v. Veterans Administration, 5 M.S.P.B. 313 (1981). See Appendix II for a
list of the Douglas Factors.

       13  According to 28 C.F.R. Parts 0 and 45, professional misconduct is any
misconduct involving Department attorneys that relates to their exercise of their
authority to investigate, litigate, or provide legal advice.


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
Table 1: Authority for Handling Formal Discipline Against Attorneys
Action                                Delegated Authority to Issue
Written Reprimands                    Director, EOUSA, or designee; Principal Deputy
                                      Director, EOUSA; Counsel to the Director,
                                      EOUSA; U.S. Attorneys; and First Assistant
                                      U.S. Attorneys
Suspensions (14 Days or Less)         Proposals: Director, EOUSA, or designee;
                                      Principal Deputy Director, EOUSA; Counsel to the
                                      Director, EOUSA; U.S. Attorneys; and First
                                      Assistant U.S. Attorneys
                                      Decisions: Director, EOUSA, or designee;
                                      Principal Deputy Director, EOUSA; Counsel to the
                                      Director, EOUSA; and U.S. Attorneys
Suspensions (15 Days or More),        Proposals: Director, EOUSA, or designee;
Reductions in Grade/Pay, Removal      Principal Deputy Director, EOUSA; Counsel to the
                                      Director, EOUSA; and U.S. Attorneys
                                      Decisions: Director, EOUSA, or designee;
                                      Principal Deputy Director, EOUSA; and Counsel
                                      to the Director, EOUSA
Source: U.S. Attorneys’ Manual.

       For non-attorney support staff, USAM 3-4.752 gives U.S. Attorneys
and the Director of EOUSA the authority to issue, propose, and decide
formal discipline for non-attorney staff, but they may delegate this
authority to first- and second-line supervisors. The USAM requires that
second-line supervisors make decisions on suspensions, reductions in
grade or pay, or removals. How this authority is delegated can vary
among USAOs. While the first- and second-line supervisors handle the
adjudication in some districts, in others the chief of a section or higher
level executive management handle the adjudication. The proposing
official is usually the first-line supervisor and the deciding official is
usually the second-line supervisor. However, an official higher on the
supervisory chain may adjudicate the matter depending on the USAO,
the type of misconduct, or if there is a conflict with a supervisor acting as
a proposing or deciding official.

Implementation

       The USAO or EOUSA is responsible for initiating the
implementation of discipline for its employees. If the penalty is a letter of
reprimand, the supervisor that issued the letter sends it to Human
Resources (either at the USAO or EOUSA) to be placed in the employee’s
official personnel file. The letter can remain in the employee’s file for no



U.S. Department of Justice                                                             7
Office of the Inspector General
Evaluation and Inspections Division
more than 3 years. A supervisor has the discretion to remove the letter
prior to the 3-year limit.14 If the penalty is a suspension or removal, the
supervisor notifies the respective human resources office, either at the
USAO or EOUSA, and that office issues a standard form requesting the
action. EOUSA Human Resources then processes the standard form
implementing the action. Supervisors have the discretion to determine
when employees will serve their suspension.

      Figure 1 on the next page outlines in a flow chart the disciplinary
process from the time an allegation of misconduct is reported to GCO.




       14   DOJ Order 1200.1 allows each component to maintain copies of the removed
letter of reprimand for statistical purposes, and the letter can be used in certain
circumstances to support more serious discipline for later offenses.


U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation and Inspections Division
            Figure 1: USAO and EOUSA Disciplinary Process




U.S. Department of Justice                                  9
Office of the Inspector General
Evaluation and Inspections Division
           SCOPE AND METHODOLOGY OF THE OIG REVIEW


Scope

      This review covered allegations of misconduct by USAO and
EOUSA employees that resulted in disciplinary action or decisions to
take no action, from FY 2009 through FY 2011. We excluded
misconduct cases that were still open as of the date of our data request,
and we did not review investigations of professional misconduct, as those
are conducted by OPR.

Methodology

      Our review included interviews, data analysis, case file reviews,
and site visits. We reviewed applicable laws, regulations, policy, and
written procedures related to the disciplinary process. We collected and
analyzed data from EOUSA and its GCO, OPR, and the OIG’s
Investigations Division.

Interviews

       We interviewed officials and staff members at EOUSA, the EOUSA
General Counsel’s Office, and officials and staff members at our site
visits to USAOs. We also interviewed officials of the OIG’s Investigations
Division, OPR, and the Department’s Security and Emergency Planning
Staff.

Data Analyses and Case File Reviews

        We collected and analyzed component data on misconduct and
discipline decisions from EOUSA from FY 2009 through FY 2011.
Specifically, we reviewed misconduct case files from the GCO case
management system referred to as “management-employee relations
matters” (MER). GCO classifies misconduct, vetting questions,
performance issues, and advice to USAOs regarding those topics as
MERs. We initially received 1,353 MERs from EOUSA with limited
information for each MER. We analyzed these MERs and were able to
associate 671 of the 1,353 MERs with misconduct. We reviewed the case
files for these 671 MERs in the GCO case management system to fill in
missing information. From the review of these 671 case files, we
determined that there were 563 misconduct allegations during our study
period. We conducted a thorough review of 174 of these 563 case files,
and our methodology for selecting the files to review is described in
Appendix III. We also collected and analyzed data from the OIG and OPR

U.S. Department of Justice                                              10
Office of the Inspector General
Evaluation and Inspections Division
on referrals and EOUSA Human Resources on implementation of
discipline.

Site Visits

      To determine how the disciplinary process works in the USAOs and
to obtain additional information and opinions about the efficacy of the
process, we conducted six site visits. We made one site visit to EOUSA
and five to USAOs in the Central District of California, the District of
Columbia, the Eastern District of New York, the Eastern District of
Virginia, and the Western District of Texas. We selected the site visits
based on a variety of factors, including geographic location, size of the
USAO, number of misconduct cases, and variety of offenses or
misconduct.




U.S. Department of Justice                                            11
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


CHAPTER I: INCOMPLETE MISCONDUCT CASE FILES

EOUSA is hampered in its ability to fully evaluate the disciplinary
process and ensure that discipline decisions are consistent and
reasonable.

      We found that case file documentation on misconduct cases was
not centrally located and the files that did exist were incomplete.
Because of its advisory and legal role, GCO had the most extensive
information in its case management system, but GCO’s files were not
complete for several reasons. For example, USAOs are not required to
provide misconduct information to GCO unless a case is appealed. Also,
there are only limited requirements for GCO employees to complete or
update the case management system when misconduct information is
received. As a result, EOUSA cannot easily determine the number of
misconduct cases or determine whether penalties are implemented.
Additionally, GCO attorneys may be limited in their ability to find
precedents in the case management system.

Incomplete Misconduct Case Files

       We found that documents and information about misconduct
cases exist in different locations, and no one case file may contain all
information concerning a case. During our site visits to USAOs, we
learned that supervisors (including the First Assistant U.S. Attorney, the
Executive Assistant U.S. Attorney, Division Chiefs, or support staff
supervisors) typically maintained a “working” or “drop” file with varying
levels of completeness. Generally, the supervisors told us, and we saw
some evidence during our site visits, that they kept drafts of the proposal
and decision letters, e-mails, correspondence, and notes from any
meetings concerning the proposed action on an informal basis. They all
commented that they relied on GCO to maintain the “official” disciplinary
case file.

        Although the USAOs relied on GCO to maintain the official
disciplinary file, GCO maintained only a part of the case file. EOUSA has
not delegated responsibility to maintain an official misconduct case file to
any entity. GCO is responsible for maintaining documents necessary in
litigation, and EOUSA Human Resources or the USAO Human Resources
divisions keep documentation related to implementation of misconduct
penalties, such as Standard Form 50s (SF-50), in the employee’s official
personnel file.

U.S. Department of Justice                                               12
Office of the Inspector General
Evaluation and Inspections Division
       Our review revealed that the GCO case management system had
data fields that would provide sufficient information about the
disciplinary process. However, we found that many of the data fields
were blank or not completed consistently and that the assigned GCO
attorneys did not attach or copy documents into the system consistently.
We found that data fields that provided specific information about the
disciplinary process, such as the case outcome, discipline charges, and a
description of the allegation, were not always filled in or were filled in
early in the case and not updated to reflect resulting changes or
developments. For example, every matter entered in the case
management system contained a “matter description” field. This field
was designed to provide a quick summary of what occurred or what was
alleged in the case. In 58 of the 563 case files we identified as
misconduct allegations, the GCO attorney wrote little information in the
field or entered a generic description that provided no details as to what
occurred. We did find that general information fields, such as the name
of subject, position of subject, open date, and closed date, were mostly
completed in the case management system.

       We determined that both inadequate procedures for completing the
data fields in the GCO electronic case file and insufficient adherence to
the data control procedures that did exist contributed to GCO’s
incomplete misconduct files. The written guidance for the GCO case
management system only outlined basic instructions, such as when and
how to open and close cases or how to link related cases. We did not
find written requirements for GCO attorneys to fill in all necessary data
fields and they often copied e-mails or documents into the case file
without updating the corresponding data field. In those instances,
although the information was contained in the case file, it was not easily
retrievable without reading through notes or e-mails.

       GCO provided the OIG a demonstration of its case management
system and described the data control procedures, including what data
fields should be filled in with information and that the “matter
description” field should include key words for future searches. Our
review of the GCO case management system found that GCO attorneys
were not consistently following these data control procedures. GCO
officials also told us that whenever an employee is the subject of an
allegation of misconduct, a new matter (or MER) should be opened in the
GCO case management system, but we did not find written guidance to
this effect. We found that in seven MERs, a new matter was not opened
when a new allegation on the same employee was reported to GCO, most
likely because a prior misconduct allegation was in the process of
adjudication or it was similar conduct. For example, we reviewed a case
file where a subject had four misconduct cases included under one MER.

U.S. Department of Justice                                             13
Office of the Inspector General
Evaluation and Inspections Division
After a careful review of the MER, we determined that the subject had
four separate misconduct allegations (all of the same nature) and four
separate outcomes. However, the GCO case management system data
fields showed only one misconduct charge or offense and one outcome.
All seven cases had more than one matter or allegation and outcome in
the same case file.

      Another contributing factor to GCO’s incomplete misconduct files
was the absence of a policy requiring USAOs or supervisors to provide
documents pertaining to a disciplinary matter to GCO unless the matter
was being litigated. Since there was no requirement, the USAOs often
had to be reminded to provide final executed documents, such as the
proposal and decision letter, and in some cases the documents were not
provided. If formal discipline was not pursued, the USAO did not have to
consult with GCO or provide documents and information memorializing
what action was taken. During our file review we saw numerous
instances where GCO attorneys had asked for copies of final documents
or asked the USAO what resulted from the misconduct allegation.
However, the GCO attorneys often had to request information numerous
times, and we saw cases in which GCO finally closed the matter without
any communication from the USAO regarding what happened in the
matter.

       We found EOUSA Human Resources records were similarly
incomplete. When an employee is suspended or removed, a request for
personnel action is documented on the Office of Personnel Management
Standard Form SF-52. The request is made by the servicing personnel
office, usually the USAO’s Human Resources office or at EOUSA. Once
the employee serves a suspension, Human Resources at the USAO or
EOUSA will issue a notice of personnel action to the employee, an SF-50,
evidencing the date on which service of the penalty began and when it
was completed. If the employee is removed from service, the SF-50 will
state the date the removal became effective. The issuance of an SF-50
provides the best evidence of whether disciplinary action was imposed.
However, we were unable to locate 46 percent (63 of 138) of the SF-52s
or SF-50s in EOUSA Human Resources records documenting penalty
implementations.

Potential Issues Resulting from Incomplete Case Files

      Because the misconduct case files were incomplete, EOUSA could
not easily determine the actual number of misconduct cases for all the
USAOs and EOUSA, how many misconduct allegations were referred to
the OIG and OPR, whether penalties were implemented in all misconduct
cases, or evaluate disciplinary process trends and issues. Additionally,

U.S. Department of Justice                                            14
Office of the Inspector General
Evaluation and Inspections Division
the absence of documentation limited the ability of GCO to conduct
comprehensive searches and analyses of case precedents. As a result of
these limitations, EOUSA was hampered in its ability to fully evaluate the
four phases of its disciplinary process for consistency and
reasonableness.

Determining the Number of Misconduct Cases and Misconduct Allegations
Referred to OIG and OPR

      EOUSA cannot easily determine how many misconduct cases it
has in its GCO case management system without conducting a
comprehensive review of the system and USAO files. EOUSA told us that
from FY 2009 to FY 2011 there were 1,353 MERs closed, but we could
not easily identify which of these 1,353 MERs were related to
misconduct. These MERs included general questions, performance
issues, suitability reviews, and misconduct matters. After reviewing the
data and the case management system, we determined that
approximately 671 of the 1,353 matters were related to a misconduct
allegation.

       Upon a more detailed review of each of the 671 case files, we
determined that there were actually 563 misconduct allegations.15 In
those cases, 221 employees (39 percent) received formal discipline, 150
(27 percent) received informal discipline, and 192 of the cases
(34 percent) had other results. Of the 192 cases that had other results,
we could not determine what happened in 17 cases. (See Appendix IV for
a further breakdown of the misconduct allegations and outcomes.)
Further, even though the USAOs and EOUSA are required to consult
GCO about formal discipline, they are not required to do so for informal
matters and may simply handle them internally. As a result, the number
of incidents involving misconduct was almost certainly higher than
reported during our study period.

      We also had difficulty determining from EOUSA case files how
many matters reported to GCO were forwarded to the OIG and OPR.16
While GCO documented all open investigations of USAO and EOUSA
employees conducted by other entities, such as the OIG or OPR, it did
not consistently designate which entity was handling the investigation

       15 We reviewed the case files in the GCO case management system for all 671
MERs, reading e-mails, notes, and other documents to determine if the case, in fact,
involved misconduct.

       16To determine if all allegations were appropriately referred to the OIG and
OPR, we had to compare referral data from both those entities and EOUSA.


U.S. Department of Justice                                                             15
Office of the Inspector General
Evaluation and Inspections Division
despite its case management system having a drop down menu for that
purpose. Consequently, we had to make an inference from the matter
description or read notes and e-mails in the case file to determine which
entity handled a misconduct investigation. Additionally, when
misconduct allegations were referred to the OIG and immediately
declined, the referral was not documented in a uniform place in the
MER. In many cases, we had to search the whole case file to find an
e-mail or note reflecting the referral.

Verifying Implementation of Penalties

       We were unable to easily determine whether discipline was
implemented in all formal discipline cases because EOUSA was not able
to provide complete documentation. To verify whether disciplinary
penalties were implemented, we requested SF-50s for the 138
suspensions and removals that occurred during our study period from
EOUSA Human Resources.17 EOUSA Human Resources had only 75 of
the 138 forms we requested. EOUSA told us that some of the missing
forms were a result of EOUSA no longer having access to the employee’s
official personnel folder.18 We further reviewed the suspension and
removal cases in the GCO case management system to see if there was
proof of implementation. We found documentation such as an e-mail or
a note in the GCO case management system indicating that the penalty
was implemented for an additional eight suspensions. Therefore, we
found some type of proof of implementation for a total of only 83 of the
138 cases (60 percent) and no such proof in the remaining 55 cases
(40 percent). Because of the absence of documentation in so many
cases, EOUSA and the Department cannot be assured that USAO and
EOUSA employees served the penalties imposed for misconduct.

Limited Case Precedent Searches

      We found that incomplete case files also limited the ability of GCO
to conduct comprehensive searches for case precedent. As part of their
advisory role, GCO attorneys recommend appropriate ranges of discipline

       17   The implementation phase of the disciplinary process is discussed in more
detail later in this report.

       18  Once employees separate from federal service, their official personnel folders
are forwarded to the National Personnel Records Center. Federal agencies do not have
access to these official personnel folders for individuals who are no longer employed
with the federal government. Even though some USAOs have a Servicing Personnel
Office that provides human resources services, EOUSA Human Resources has access to
all current USAO employees’ official personnel files and was able to provide us with the
forms that were still accessible.


U.S. Department of Justice                                                              16
Office of the Inspector General
Evaluation and Inspections Division
to USAOs. GCO attorneys told us that they conducted searches in the
EOUSA GCO case management system and relied on the institutional
knowledge of their colleagues and superiors to identify similar
misconduct cases for precedent. However, many of the attorneys did not
have a long tenure in GCO. This could be particularly problematic when
the offense type or misconduct is rare or has traditionally resulted in
informal discipline. As previously mentioned, informal discipline cases
have much less documentation in the case files. Without better
recordkeeping, GCO attorneys will not have a comprehensive database of
precedents to search for guidance to help ensure discipline is imposed
consistently for similar offenses.

Inability to Evaluate the Disciplinary Process

      As a result of a lack of complete, centralized misconduct case files,
we found that EOUSA is hampered in its ability to adequately evaluate
the four phases of the disciplinary process, and cannot ensure that
disciplinary decisions are consistent and reasonable. If EOUSA cannot
determine the number of allegations reported or what kind of allegations
were reported, except anecdotally, EOUSA cannot accurately identify
trends or patterns of behavior, decisions, or penalties and cannot
address emerging issues at a particular USAO or across the USAOs or
EOUSA. In the following sections we discuss EOUSA’s inability to fully
evaluate the four phases of the disciplinary process.




U.S. Department of Justice                                               17
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER II: EVALUATION OF THE DISCIPLINARY PROCESS

USAO and EOUSA reporting, inquiry, and adjudication of misconduct
and the implementation of penalties were generally consistent and
did not appear to be unreasonable for the cases we were able to
evaluate. However, we did find some issues in all four phases of the
disciplinary process that could not be explained by the case files.

       Based on our analysis of GCO case files and interviews of USAO
and EOUSA staff, it appears that in the cases we reviewed that the
USAOs and EOUSA consistently reported misconduct to GCO and that
GCO appropriately referred those allegations to the OIG and OPR when
necessary. However, our review of the inquiry, adjudication, and
implementation phases of the disciplinary process was hampered by a
lack of documentation in the case files. For the case files with sufficient
documentation to review, we determined that USAO and EOUSA
inquiries were not always consistent within offense types; however, the
differing levels of inquiry did not appear to be unreasonable based on the
individual case circumstances. Similarly, we found that adjudications or
outcomes were not always consistent within offense types, but generally
did not appear to be unreasonable based on the available evidence.
Lastly, for the cases with adequate documentation, we found that the
USAOs and EOUSA were implementing penalties consistently.

Reporting

      USAO and EOUSA employees appeared to be reporting
misconduct. During our five site visits, we spoke with USAO and EOUSA
support staff and attorneys at all levels, including USAO executive
management. Employees uniformly told us that if they became aware of
misconduct, they would report it to their supervisor or management. We
did not find evidence that misconduct was not reported up the
supervisory chain as appropriate.

       Moreover, it appeared that managers are notifying and consulting
with EOUSA GCO before taking formal discipline against an employee
who has engaged in misconduct. And, although imposing informal
discipline does not require notification to GCO, we found that 27 percent
(150 of 563) of the misconduct cases we reviewed resulted in informal
discipline. Consequently, we concluded that the USAOs and EOUSA
were seeking GCO advice even when the penalty ultimately imposed did
not require such consultation. Our data review also found that USAOs
and EOUSA were consulting GCO on other matters such as suitability
(for example, background checks, verification of employment, and
verification of credentials) and performance issues. USAO and EOUSA

U.S. Department of Justice                                              18
Office of the Inspector General
Evaluation and Inspections Division
supervisors told us that GCO was extremely helpful and that they relied
on GCO advice for a range of disciplinary issues, especially when
considering formal discipline. One U.S. Attorney stated, “I don’t take a
step [in discipline matters] without contacting GCO.”

Referrals to the OIG and OPR

       Allegations involving criminal activity and other serious
misconduct, such as misuse of position, must be reported to the OIG,
and allegations of professional misconduct against Department attorneys
must be referred to OPR.19 Based on data from EOUSA, the OIG, and
OPR, we determined that GCO was appropriately referring misconduct
allegations to the OIG and OPR. For OIG referrals, we compared reports
of referrals from the GCO and the OIG’s Investigations Division case
management systems to ensure that allegations of criminal activity and
other serious misconduct were forwarded to the OIG.20 During our study
period, the 158 referrals to the OIG documented in the GCO case
management system were also in the OIG’s Investigations Division case
management system. The OIG’s Investigations Division officials stated
that allegations from the USAOs and EOUSA were properly referred to
the OIG.

       For OPR referrals, we compared reports of referrals from the GCO
case management system and the OPR database to ensure allegations of
professional misconduct were referred to OPR.21 There were 230
referrals to OPR recorded in the GCO case management system during
our study period. We were able to match all but five referrals that were
in GCO’s system but not in OPR’s database. In one of the five cases, we
found proof of referral based on an e-mail in the GCO case file. We
consulted with OPR on the remaining four allegations that we were not
able to verify as having been referred. The OPR Deputy Counsel stated
that these referrals may not have been recorded in OPR’s case
management system if they were made by telephone and did not warrant
initiating an inquiry. For example, an AUSA may call GCO and be
advised to self-report the incident to OPR. If OPR determines that it is


       19   28 C.F.R. Parts 0 and 45 and USAM 1-4.100.

       20   The USAOs or EOUSA may report allegations directly to the OIG, but usually
report to GCO, which then contacts the OIG. Generally, if an allegation is reported
directly to the OIG, the OIG notifies GCO.

       21  The GCO case management system may not contain all referrals of
allegations of professional misconduct because the USAOs may refer allegations directly
to OPR.


U.S. Department of Justice                                                          19
Office of the Inspector General
Evaluation and Inspections Division
not an OPR matter and it does not need to be reported, this type of report
or referral would not be recorded in OPR’s database, but could be
reflected as a MER at GCO. Overall, the OPR Deputy Counsel stated that
he believed that all professional misconduct allegations from the USAOs
and EOUSA were being properly referred to OPR.

Inquiry and Adjudication

       Due to a lack of documentation in case files, our review of USAO
and EOUSA inquiries and adjudications was somewhat limited.
Generally, in our review of the 563 allegations, we found varied evidence
of documentation that an inquiry was conducted and the level of the
inquiry, ranging from notes in the case file to copies of e-mails or reports
of investigations. Our review of the 563 allegations and our quantitative
data analysis of the outcomes of the cases showed that the outcomes
varied across most offense types.22 To evaluate the reasonableness of the
results, we conducted three types of case file reviews.

      First, we reviewed a sample of case files by six offense types. We
found that the nature of the inquiries varied within those offense types,
although the differing levels of inquiry did not appear to be unreasonable
based on the individual case circumstances. Similarly, we found that
adjudications were not always consistent within offense types, but we
generally did not find that they were unreasonable based on the available
evidence.

      Second, we performed an in-depth review of all the case files on
computer misuse – pornography and adult images, and sexual
harassment allegations.23 For computer misuse cases, we found that
those cases generally had consistent outcomes, which we believe can be
attributed in part to the specific policies and procedures in place for
detecting, responding to, and disciplining instances of computer misuse,
including a table of cases and outcomes specifically applicable to these
types of computer misuse that is used to aid GCO attorneys when
advising the USAOs on appropriate penalties. For the sexual harassment

       22 We also attempted to analyze the outcomes of similar offense types across

demographic categories, including race, gender, and job category, and across fiscal
years and USAOs. However, the number of cases under each offense type was often too
small to reach any meaningful conclusions.

       23 DOJ Order 2740.1A prohibits the creation, download, viewing, storage,
copying, or transmission of sexually explicit or sexually oriented materials. GCO
categorizes these activities as two types of offenses: “computer misuse – pornography”
and “computer misuse – adult images.” Adult images include material that has sexual
content or that is sexually suggestive but not within the definition pornography.


U.S. Department of Justice                                                          20
Office of the Inspector General
Evaluation and Inspections Division
cases, we found that a lack of documentation hampered our ability to
assess the reasonableness of the inquiry that was conducted and the
penalties that were imposed.

      Lastly, we reviewed the 33 cases we found at GCO for which the
USAO ultimately chose not to implement discipline. We found that while
most of the offenses in these 33 cases were not considered serious
misconduct, 18 of the 33 case files had no documentation or explanation
as to why the USAO chose not to pursue informal or formal discipline.

      We also found 55 subjects with repeat misconduct cases in our
dataset. We analyzed these cases and found that the USAOs and EOUSA
were consistently using progressive discipline to address repeat
misconduct.

       We also found that for formal discipline cases, the USAOs and
EOUSA are required to adhere to the record-keeping provisions of Title 5
of the Code of Federal Regulations (C.F.R.), but because of the lack of
documentation in the GCO case management system, we could not verify
that the regulations were consistently adhered to when formal discipline
was imposed for a few cases.

Case File Review by Offense Type

      We conducted a case file review as to the level of inquiry and
adjudication or outcome on 25 randomly selected case files covering six
offense types.24 The results of our analysis are as follows:

       Inquiry – According to DOJ Order 1200.1(6)(b), component
management may conduct any level or type of an inquiry when seeking
to determine whether to discipline an employee or when determining the
most appropriate penalty for the conduct committed. Certain types of
misconduct lend themselves to varying levels of inquiry. For example an
allegation of credit card misuse may require only a copy of the credit card
bill, while an allegation of leave abuse may take an extensive review of
leave records. In interviews with GCO, we were told that most of the

       24  The offense types were: unprofessional conduct (four cases), lack of candor
(five cases), credit card misuse (three cases), alcohol/drug abuse (six cases), leave
abuse/absent without leave (three cases), and disclosure of sensitive information (four
cases). We selected the case with the highest penalty, the case with the lowest penalty,
and a case in the mid-range of penalty for each offense type. When a case had unique
circumstances that did not allow for easy comparison within that offense type, we then
selected additional cases to review, for a total of 25 case files. We also reviewed cases
that included more than one offense or type of misconduct. See Appendix III for a
description of our methodology.


U.S. Department of Justice                                                             21
Office of the Inspector General
Evaluation and Inspections Division
misconduct case files did not contain anything more than an e-mail or
an initial report of misconduct. Our review of the case files found limited
documentation except in some formal discipline cases, such as computer
misuse. In cases where an outside entity conducted the investigation,
such as the OIG or OPR, we typically saw more formal inquiry
documentation such as a report of investigation.

       We reviewed the level of inquiry for a sample of 25 case files for
6 offense types.25 We found that the level of inquiry conducted was not
unreasonable under the circumstances in all but one instance. In that
case, there was no evidence in the case file that the USAO conducted an
inquiry, only a complaint from an outside party forwarded by the
U.S. Attorney to GCO and two unsuccessful efforts to speak by telephone
thereafter. The AUSA in question was alleged among other things to
have been intoxicated in the office and at grand jury and to have driven
drunk to an official function. The case file reflected that GCO closed the
matter over a year after the unsuccessful efforts to speak by telephone
with the USAO with no documentation of further follow-up by either the
USAO or GCO. The level of inquiry for the remaining 23 cases appeared
to be consistent and did not appear to be unreasonable.

      Adjudication – Our case file review found that outcomes varied for
most of the cases, but the outcomes in most cases did not appear to be
unreasonable based on the evidence reflected in the case files. There
was only one case for which the outcome appeared unreasonable based
on the documentation in the case files, as explained below.

      Four of the 25 case files in our sample had insufficient
documentation to fully evaluate the adjudication, leaving 21 cases for
which we could make a determination on consistency and
reasonableness.26 We determined that two offense types had consistent
outcomes – four out of the six alcohol/drug abuse cases and two out of
three credit card misuse cases. The remaining 15 cases in our sample
had varying outcomes. It appears that this resulted from a number of
factors, including that the subject committed additional misconduct or
had a record of prior discipline.

      The specific circumstances in cases often accounted for why we
determined varied outcomes were not unreasonable. For example, in a
case involving disclosure of sensitive and confidential information, the

       25   We were unable to evaluate the level of inquiry in one of the cases.

       26 The four cases involved allegations of disclosure of sensitive/confidential
information, leave abuse/absent without leave (AWOL), and unprofessional conduct.


U.S. Department of Justice                                                              22
Office of the Inspector General
Evaluation and Inspections Division
subject, a support staff employee, disclosed law enforcement sensitive
information to criminal defendants and may have been compensated for
the disclosure. Although the subject had no prior disciplinary history,
removal was not an unreasonable result given the seriousness of the
conduct and the resulting harm caused to the government.27 In another
case in the same offense category, the subject, a supervisory AUSA,
received a letter of reprimand for disclosing Privacy Act information
(stemming from an Equal Employment Opportunity claim) to a
subordinate AUSA and yelling at another subordinate AUSA in the
presence of others. The disclosure of information was not as damaging
to the Department as in the previous example, but was serious enough,
when combined with yelling at a subordinate, that it was not
unreasonable to impose formal discipline at the lowest level.

       The penalties for the five cases in the lack of candor offense varied
from no action to a removal. However, we determined the outcomes were
not unreasonable based on factors described in the case files, such as
the subjects’ disciplinary record, intent, and the extent or seriousness of
the misconduct. This also is a category in which the misconduct can
encompass varying degrees. For example, in one case, the subject was
dishonest about her whereabouts and received a letter of reprimand, and
in another the subject repeatedly lied about whether her leave was
approved and ultimately received a letter of termination and resigned. In
a third case, the subject AUSA participated in backdating an internal
case memorandum, apparently to make it appear to be previously
approved by the Criminal Chief as per office policy. The AUSA was
suspended for 3 days without pay. The discipline was mitigated because
the AUSA had no prior discipline issues and had an otherwise stellar
employment record. In a fourth case the subject AUSA was not found to
have lacked candor, but rather to have failed to use sufficient diligence in
making statements to a probation officer, resulting in a personal oral
admonishment from the U.S. Attorney. Again, we did not find that the
outcomes reached in these five cases were unreasonable under the
circumstances presented.

       We determined that the outcome did not seem reasonable in 1 of
the 21 cases we evaluated. In a credit card misuse case, despite a
finding that the subject engaged in the conduct on several occasions and
that it was intentional, the USAO issued a letter of reprimand, which we
believe was unreasonable in light of penalties imposed in similar cases.28

       27   The case was referred for criminal prosecution, which was declined.

       28  The penalties for credit card misuse range from oral counseling for a first
offense to suspension for repeat offenses.


U.S. Department of Justice                                                               23
Office of the Inspector General
Evaluation and Inspections Division
In this case, the subject alleged that she mistook her government card
for her personal card to obtain cash advances on two occasions and that
she had been told by another employee that it was permissible to use her
government card to hold a hotel room for personal purposes. However,
the other employee denied believing that was permissible or giving such
advice to anyone, and the USAO determined that the subject’s
explanations were not credible. Based upon our review of the file and the
penalties imposed in other credit card misuse cases, we believe that the
issuance of a letter of reprimand was not a reasonable outcome in this
case.

       We found that the outcomes in the remaining 20 cases were within
the range of penalties typically imposed for similar conduct and not
unreasonable based on the facts and circumstances presented. For
example, in one case involving an allegation of leave abuse, a subject,
who had been counseled about arriving to work on time on several prior
occasions, received a leave restriction letter because he continued to be
perpetually late to work. By contrast, in another leave abuse case, a
subject with a significant prior disciplinary history was removed from
employment for frequent unapproved absences and for failing to provide
medical documentation required to support the absences. We found that
the decision to issue a leave restriction in the former case was not
unreasonable and was consistent with the penalty for similar offenses in
light of the prior counseling and continued violations. The decision to
remove the subject in the latter case for being absent without leave or
providing required medical documentation was also not unreasonable
given the seriousness of the repeated misconduct and the subject’s prior
disciplinary history.

In-Depth Review of Two Offense Types

       Computer Misuse (Pornography and Adult Images) – Unlike most
misconduct within EOUSA and the USAOs, specific policies and
procedures provide a framework for detecting, responding, and
disciplining instances of computer misuse. We believe that this
additional guidance, along with the emphasis EOUSA placed on
addressing computer misuse in 2008, has led to more consistent
penalties for misuse involving pornography or adult images than for any
other offense categories in our study period. GCO categorizes the
creation, download, viewing, storage, copying, or transmission of sexually
explicit or sexually oriented materials as “pornography.” GCO
characterizes as “adult images” material that has sexual content or that
is sexually suggestive, but not within the definition of pornography. The
Department requires that any cases involving possible child pornography


U.S. Department of Justice                                             24
Office of the Inspector General
Evaluation and Inspections Division
be referred to the OIG’s Investigations Division.29 All of the cases we
examined in our review involved adult pornography.30

       DOJ Order 2740.1, Use and Monitoring of DOJ Computers and
Computer Systems, notifies all Department employees that computer
activity, such as e-mail and web browsing, conducted on a government
computer is monitored. Most communications a Department employee
makes through the Internet or the Department’s intranet system can be
identified and traced to a specific employee. The Department routinely
monitors and intercepts computer traffic for security purposes and to
detect improper use through an Information Technology Intrusion
Detection System that alerts the Information Systems Security Staff (ISS)
to incidents that could potentially compromise the security of the
network. In all but 4 of the 49 computer misuse – pornography and
computer misuse – adult images cases, the misconduct was discovered
through an ISS alert or a follow-up search resulting from prior misuse. If
the evidence collected through the initial alert is insufficient to determine
the breadth and scope of the suspected misuse, GCO, with concurrence
from ISS, may request that the Director of EOUSA approve additional
monitoring or searches in accordance with procedures established in
DOJ Order 2740.1A and elaborated upon in U.S. Attorneys’
Procedures 3-16.200.010, Obtaining Approval to Search Individual User
Computer Data.

       On July 29, 2008, the Director of EOUSA sent out a memorandum
to all U.S. Attorneys and EOUSA stating that EOUSA had seen an
increasing number of computer misuse incidents and reminding USAO
and EOUSA employees of unacceptable uses of government computer
systems. This memorandum established the prevention of and discipline
for computer misuse as priorities for EOUSA. Subsequently, GCO
started to compile information on computer misuse cases, in particular
those involving pornography, in a table that included the subject’s name,
a description of the computer misuse, and the disciplinary outcome.
This table served as an informal list of penalties imposed in prior
computer misuse offenses that GCO attorneys could reference when
confronting new computer misuse cases. We saw evidence in several

       29 28 C.F.R. Part 45 § 11 states, “Department of Justice employees have a duty
to, and shall, report to the Department of Justice Office of the Inspector General . . .
any allegation of criminal or serious administrative misconduct on the part of a
Department employee.”

       30 All allegations of child pornography are referred to the OIG as possible
criminal cases. We did not identify any allegations of child pornography during the
study period.


U.S. Department of Justice                                                            25
Office of the Inspector General
Evaluation and Inspections Division
internal notes and e-mails that GCO attorneys referred to the table when
deliberating about discipline for computer misuse – pornography cases.
This may have further contributed to the consistency in penalties seen in
computer misuse – pornography cases in our study period.

      We reviewed all 34 cases of computer misuse – pornography that
occurred during our study period. Out of 34 cases, 24 resulted in a
suspension, 1 case (which also included a sexual harassment allegation)
resulted in a removal, and 3 cases resulted in penalties lighter than a
suspension, including a case in which no action was taken. The
remaining six cases resulted in the subject’s resignation, retirement, or
an unknown outcome. Table 2 shows the penalties for the 34 cases.

     Table 2: Outcome of Computer Misuse – Pornography Cases,
                    FY 2009 through FY 2011
             Outcome                           Number      Percentage
             Removal                                  1           3%
             Suspension                              24          70%
             Letter of Reprimand                      1           3%
             Oral Admonishment                        1           3%
             Resignation or Retirement                5          15%
             No Action                                1           3%
             Unknown                                  1           3%
             Total                                   34         100%

             Source: GCO misconduct case files, OIG analysis.

      We also reviewed all 15 cases of computer misuse – adult images
that occurred during our study period. Similar to the cases involving
computer misuse pornography, the adult images cases resulted in
consistent penalties. Of the 15 cases, 8 resulted in informal discipline,
such as oral counseling, oral admonishment, or a letter of
admonishment. An additional three allegations resulted in a letter of
reprimand. Therefore, 11 of the 15 computer misuse – adult image cases
received lighter penalties than the most common penalty imposed,
suspension, for computer misuse -pornography cases. Both of the
computer misuse – adult images cases that resulted in suspensions had
aggravating circumstances. In one, the subject had prior serious
misconduct, and in the other the subject was using Department e-mail to
request damaging information about his ex-wife. Table 3 outlines all
computer misuse – adult images cases.



U.S. Department of Justice                                              26
Office of the Inspector General
Evaluation and Inspections Division
     Table 3: Outcome of Computer Misuse – Adult Images Cases,
                    FY 2009 through FY 2011
            Outcome                              Number         Percentage
            Suspension                                     2           13%
            Letter of Reprimand                            3           20%
            Informal Discipline                            8           53%
            No Action                                      1             7%
            Unknown                                        1             7%
            Total                                         15          100%
            Source: GCO misconduct case files, OIG analysis.

      Overall, we found the penalties to be consistent for computer
misuse cases involving pornography or adult images. Computer misuse
cases with pornography regularly resulted in suspensions, and cases
with adult images generally resulted in less harsh discipline absent
aggravating circumstances.

       The computer misuse – pornography and adult images categories
generally appeared to exhibit a higher level of consistency in penalties
compared with those issued for other offense categories. We believe this
may partly result from better guidance on handling these types of
violations than other offense categories. Greater guidance increases the
likelihood that each allegation is handed uniformly. In this instance, the
guidance also created a structured evidence collection method involving
specific procedures for requesting and obtaining approval for computer
searches. This contributed to more structured and better documented
inquiries that would enable proposing and deciding officials to be more
confident and consistent in their determinations. The informal table
listing the description and outcome of prior computer misuse cases
allowed GCO to quickly determine prior penalties for similar incidents
and informed the consultation process. Since EOUSA does not have a
table of penalties establishing standard penalties for specific offenses and
the GCO case management system is not complete, tables like the one
established for computer misuse promote consistency and provide an
easy way to document precedents.31 Similar tables would be particularly
useful for serious or commonly occurring offenses, such as sexual
harassment allegations, which are discussed immediately below.


       31 The Department does not require its components to have tables of offenses
and penalties as a part of their discipline systems. However, all the law enforcement
components and some of the other components in the Department have tables of
offenses and penalties.


U.S. Department of Justice                                                              27
Office of the Inspector General
Evaluation and Inspections Division
       Sexual Harassment – We reviewed all the sexual harassment cases
completed during our study period and found that some cases had
insufficient documentation to enable us to assess the level of inquiry and
the disciplinary outcomes. While EOUSA policy directs the USAO to
memorialize the initial complaint, we could not find this documentation
in almost half of the case files. Additionally, we could not find a written
summary of the inquiry in some case files and could not determine if the
inquiries were completed within the time period designated by EOUSA
policy. This made it difficult to determine what was alleged to have
occurred and whether the allegation was substantiated after inquiry.
Wealso found that some case files with attorney subjects had less
documentation than some case files with support staff subjects, which
could have resulted from differing outcomes in these cases. (Case files
with formal discipline are more documented than those with informal
discipline and, as detailed below, more of the support staff members who
did not resign received formal discipline.) The lack of documentation
also hampered our ability to fully evaluate the outcomes reached in
these cases.

       The legal framework protecting federal employees from harassment
on the basis of sex, including employees of EOUSA and the USAOs, is
contained in Section 703 of Title VII of the Civil Rights Act of 1964, the
Civil Service Reform Act of 1978, and 29 C.F.R. § 1604.11 (which contains
the Equal Employment Opportunity Commission’s (EEOC) Guidelines on
Discrimination Because of Sex). EOUSA developed a Policy and Plan for
the Prevention of Sexual Harassment, which became effective October
1994 and was updated in June 2000. The plan outlines EOUSA’s and
the USAOs’ commitment to preventing sexual harassment in the
workplace by providing avenues of redress and worksite monitoring for
indicators of potential harassment and mandating training for
employees.

      USAM 3-5.800 also requires each USAO to identify a sexual
harassment point of contact (POC) to ensure that employees have an
avenue of redress outside of the Equal Employment Opportunity and
grievance process. Small USAOs usually appoint one POC, while large
USAOs may appoint more than one. The sexual harassment POC’s
primary responsibility is to serve as the neutral initial recipient of such
complaints. In addition, POCs also are responsible for presenting
annual anti-sexual harassment training for their USAOs.

      In 2011, GCO developed specific guidance for POCs in the USAOs
and EOUSA, Guidance for Sexual Harassment Points of Contact.
EOUSA’s June 2000 sexual harassment policy statement directed POCs
to take complaints from employees and notify them of the requirements

U.S. Department of Justice                                                28
Office of the Inspector General
Evaluation and Inspections Division
to initiate an inquiry within 7 days and complete that inquiry within
30 days. The 2011 POC guidance goes beyond the June 2000 policy and
directs the POC to take written notes when receiving the initial complaint
and to present the information to management “at the earliest possible
moment.” Once an allegation has been reported to the POC, an inquiry
is to take place within 30 days (which may be conducted by the POC,
USAO management, or both, at the discretion of the USAO).

      We reviewed all 18 sexual harassment case files in our study
period and analyzed all phases of the disciplinary process.32 The
allegations in these 18 cases ranged from hugging to sexual advances to
possible sexual battery. We determined that the allegations of sexual
harassment in these cases came most often from employees in
subordinate and support positions. There were at least 29 alleged
victims in these cases, 22 of whom held support staff, contractor, or law
student intern positions. The remaining alleged victims were AUSAs and
a law enforcement officer. Most of the cases with alleged AUSA victims
involved subjects who were in supervisory AUSA positions, and the
subject in the case with a law enforcement victim was an AUSA.

       Table 4 presents the 18 cases of sexual harassment allegations in
our study period. In 1 of the 18 cases, the allegation was determined to
be unsubstantiated after an inquiry, and in 3 cases the allegations were
substantiated and resulted in formal discipline. In 5 of the 18 cases, the
subjects resigned before the investigation was complete. In 9 of the 18
cases, informal discipline was imposed, but it is unclear from the case
files whether and to what extent the sexual harassment allegation was
substantiated. In the cases in which informal discipline was imposed,
there was no formal statement of substantiation or other report
summarizing the findings of the inquiry. In all misconduct cases,
particularly those where informal discipline is imposed, we believe
EOUSA should include a statement indicating the facts that were
substantiated or a report memorializing the findings of the inquiry.




       32 Allegations of sexual harassment can go through the disciplinary process or
the Equal Employment Opportunity and grievance process. There may be additional
sexual harassment cases that went through the latter process that were outside of the
scope of our review.


U.S. Department of Justice                                                          29
Office of the Inspector General
Evaluation and Inspections Division
                   Table 4: Sexual Harassment Allegations
          Type of                                          OIG
                         Position       Position
          Sexual                                      Assessment of     Discipline
Case                     Type of        Type of
        Harassment                                     the Written       Imposed
                         Subject         Victim
          Alleged                                        Record
                                                                      Allegation Not
                        Supervisory                   Not
1      Hugging                        AUSA                            Substantiated
                        AUSA                          Substantiated
                                                                      after Inquiry
       Sexual
                                      Contractor,
       Advances,
                                      Support
       Consensual/                                    Unable to       Not Clear in
2                       AUSA          Staff, and
       Coercion                                       Determine       File
                                      Student
       Harassment,
                                      Interns
       Stalking
       Not Clear in
       File, Possible   Supervisory                   Unable to
3                                     AUSA                            Reassignment
       Discrimination   AUSA                          Determine
       Based on Sex
                                      Support
       Sexual                         Staff,          Unable to       Oral
4                       AUSA
       Advances                       Student         Determine       Counseling
                                      Intern
       Sexually
       Inappropriate
                                                      Unable to       Oral
5      Comments,        AUSA          Support Staff
                                                      Determine       Counseling
       Sexual
       Advances
                                                                      Oral
       Sexually
                                      Law                             Counseling,
       Offensive                                      Unable to
6                       AUSA          Enforcement                     USAO Kept
       Comments,                                      Determine
                                      Officer                         Subject and
       Touching
                                                                      Victim Apart
       Sexually
                                      Law Student     Unable to       Oral
7      Offensive        AUSA
                                      Interns         Determine       Admonishment
       Comments
       Sexually
                                                      Unable to       Oral
8      Inappropriate    AUSA          Support Staff
                                                      Determine       Admonishment
       Comments
       Minor Sexually   Support
                                                      Unable to       Oral
9      Inappropriate    Staff         Support Staff
                                                      Determine       Admonishment
       Comments         Supervisor
                                                                      Oral
       Sexual                                         Unable to       Admonishment
10                      First AUSA    AUSA
       Advances                                       Determine       Reassignment
                                                                      of Victim
       Sexually
                        Support                                       Letter of
11     Inappropriate                  Support Staff   Substantiated
                        Staff                                         Reprimand
       Comments




U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation and Inspections Division
             Type of                                           OIG
                             Position       Position
             Sexual                                       Assessment of       Discipline
Case                         Type of        Type of
          Harassment                                       the Written         Imposed
                             Subject         Victim
             Alleged                                         Record
         Sexual
         Advances,         Support        4 Support
12       Touching,         Staff          Staff,          Substantiated     Suspension
         Possible          Supervisor     Contractor
         Assault
         Sexually          Support
                                          AUSA, 2
13       Inappropriate     Staff                          Substantiated     Removal
                                          Support Staff
         Comments*         Supervisor
         Sexual                           Support
                                                          Unable to
14       Advances,         AUSA           Staff,                            Resignation
                                                          Determine
         Touching                         Contractor
         Sexually
         Offensive                        AUSA, Law
                                                          Unable to
15       Comments,         AUSA           Student                           Resignation
                                                          Determine
         Sexual                           Interns
         Advances
         Sexual
         Advances,
         Consensual/
                           Special                        Unable to
16       Coercion                         Support Staff                     Resignation
                           AUSA                           Determine
         Harassment,
         Possible
         Sexual Battery
         Sexual
         Advances,
         Consensual/       Deputy                         Unable to
17                                        2 AUSAs                           Resignation
         Coercion          Chief AUSA                     Determine
         Harassment,
         Stalking
         Type of           Support
                                          2 Support       Unable to
18       Harassment        Staff                                            Resignation
                                          Staff           Determine
         Unclear**         Supervisor
     * This case also involved an allegation of computer misuse – pornography. The
     subject was removed for these offenses, but later appealed the decision and was
     allowed to resign.
     ** This case involved allegations of sexual harassment, misuse of position, and
     disclosure of sensitive and confidential information.
     Source: GCO case management system, OIG analyses.

      When examining the case files, we observed that the allegations of
misconduct and the level of inquiry were not well documented in some
cases. We found that only 10 of the 18 case files included a written
summary of the initial complaint. In 12 of the 18 case files, we found
information about the allegation, ranging from an e-mail summarizing
the facts to a formal report memorializing the findings, and some of these
were not as complete as others. In the remaining six files, no such

U.S. Department of Justice                                                                31
Office of the Inspector General
Evaluation and Inspections Division
summary or report was included in the case file. Instead, these six case
files included e-mails and notes with minimal information about the
circumstances of the allegation or the inquiry. This made it difficult to
determine what was alleged to have occurred and whether the allegation
was substantiated after inquiry.

      We found evidence in 17 of the 18 case files that an inquiry was
conducted. However, in 4 of the 17 cases that showed evidence of an
inquiry we were unable to determine if the inquiry occurred within the
timeframe established by EOUSA guidance because of a lack of
documentation or the absence of a summary of inquiry.

       USAM 3-5.800 and the Guidance for Sexual Harassment Points of
Contact advise the USAOs not to appoint a manager or supervisor as the
POC because managers must often make decisions that respond to a
complaint or otherwise assess the validity of a complaint. According to the
Sexual Harassment Prevention Coordinator at EOUSA’s headquarters,
most of the designated POCs in the 94 USAOs were line AUSAs,
Administrative Officers, or Support Staff Supervisors. We found that
these staff members were generally the proposing or deciding officials for
misconduct allegations against support staff. Therefore, if a supervisor
was taking an initial complaint of sexual harassment, and the subject
was under their supervision, there could be a potential conflict if the
supervisor was later called upon to act as the proposing or deciding
official for that case. In 6 of the 18 cases we reviewed, there was
evidence that a sexual harassment POC took the initial complaint and
may have handled some aspect of the inquiry. In 10 of 18 cases,
management officials handled the initial complaint and the inquiry
exclusively. Due to the lack of documentation in the case files, we were
not able to determine who took the initial complaint or conducted an
inquiry in the two remaining cases or whether a conflict of interest
occurred in practice.

       In 13 of the 18 cases we reviewed, an AUSA was the subject of the
sexual harassment allegation, while in 5 cases the subjects were support
staff members.

      In 7 of the 18 cases, the subject of the allegation was an AUSA or
support staff supervisor. Three of the seven supervisors were AUSAs,
and four were support staff.

      In 5 of the 18 cases, the subject resigned before receiving a
decision on discipline. Four of the subjects who resigned were AUSAs,
while one subject was a support staff member.


U.S. Department of Justice                                               32
Office of the Inspector General
Evaluation and Inspections Division
       We excluded from our analysis the cases in which the subject
resigned before the disciplinary process was completed and reviewed the
outcomes of the remaining 13 cases. In 10 of the 13 cases, we did not
find the outcomes reached to be unreasonable based on the facts and
circumstances available in the record.33 For example, in one case the file
included sufficient documentation, including a POC summary of the
inquiry, to allow us to determine that the outcome did not appear
unreasonable.

       In contrast, we could not evaluate the outcome in 3 of the 13
cases because there was insufficient evidence available to determine the
substance of the complaint or the inquiry. In one case, we could not
even determine the outcome of the allegation. The case file only included
an e-mail from the USAO reporting the allegation and GCO notes on
conversations with the USAO, and did not contain any information
regarding the outcome of the allegation.

       The lack of documentation in the case files also hampered our
ability to compare outcomes between position types. We found that the
three case files with the least amount of information had attorney
subjects with allegations of conduct similar to a fourth case where the
subject was a support staff member. However, the support staff member
received formal discipline, a letter of reprimand, and the three AUSAs
received informal discipline, oral counseling, or admonishment. The lack
of documentation and the limited number of cases makes it difficult to
assess the outcomes across position types. Moreover, the lack of
documentation in these and other sexual harassment cases could limit
the ability of EOUSA to use them as precedent for future disciplinary
decisions.

Progressive Discipline

      We found that, from the files we were able to review, the USAOs
and EOUSA were consistent in employing progressive discipline to
address misconduct. Progressive discipline is defined by the Office of
Personnel Management as “imposition of the least serious disciplinary or
adverse action applicable to correct the issue or misconduct with
penalties imposed at an escalating level for subsequent offenses.”34 The

       33In one of the nine cases, the subject was removed for sexual harassment and
computer misuse – pornography.

       34  Employee Relations, Reference Materials, Glossary of Terms and Concepts,
Office of Personnel Management, http://www.opm.gov/policy-data-oversight/employee-
relations/reference-materials/#url=P (accessed January 23, 2013).


U.S. Department of Justice                                                        33
Office of the Inspector General
Evaluation and Inspections Division
USAOs and EOUSA employed progressive discipline, and GCO attorneys
told us that they routinely advised supervisors to use the lowest level
discipline that would correct the misconduct or behavior and to
progressively increase the penalty if the employee continued misconduct.

        We identified 55 employees with repeat misconduct cases in our
dataset from FY 2009 to FY 2011. Only 12 of the 55 subjects did not
receive progressively harsher discipline. Five of the 12 subjects’ case
files included reasonable explanations for the lack of progressive
discipline (for example, the allegation was not substantiated in a later
case or the subsequent misconduct was so different it did not warrant a
harsher penalty). However, we could not conclude that the lack of
progressive discipline for the seven remaining employees was reasonable
because it was not clear from the case files why the USAO chose not to
employ progressive discipline.

Code of Federal Regulations Compliance

       We found that the USAOs and EOUSA were generally complying
with 5 C.F.R. Part 752 when imposing formal discipline. However, the
lack of documentation or centralized case files prevented us from
verifying compliance for all the cases we reviewed.

      We randomly selected 31 case files that resulted in a suspension or
removal to evaluate the adherence with the regulations of Part 752 for
formal discipline. Section 752.203(g) requires agencies to maintain
copies of the following documents to provide to the employee or the Merit
Systems Protection Board upon request:

   1. notice of the proposed action;

   2. employee’s written reply, if any;

   3. summary of the employee’s oral reply, if any;

   4. notice of decision; and

   5. any order effecting the suspension, together with any supporting
      material.

Table 5 below outlines what we found from the compliance check of case
files.




U.S. Department of Justice                                               34
Office of the Inspector General
Evaluation and Inspections Division
                Table 5: Compliance with 5 C.F.R. Part 752
                                                           Not          Total
      C.F.R. Requirement              Yes       No      Applicable      Cases
      Notice of Proposed Action       27         4         N/A           31
      Employee’s Written Reply
                                      19         5           7            31
      (if any)
      Summary of Employee’s
                                      4         11          16            31
      Oral Reply (if any)
      Notice of Decision              28         1          2*            31
      Documentation of
                                      16        15         N/A            31
      Implementation
     * In one case the subject waived her right to a decision letter and accepted
     and served the proposed discipline. In another case, the subject accepted an
     agreement and the discipline was mitigated from a removal to a 30-day
     suspension and last chance agreement with the termination decision held in
     abeyance.
     Source: GCO case management system, OIG analysis.

We could find both the notice of proposed action and the decision letter
in only 26 of the 31 case files. For a few of the cases in our sample, the
lack of documentation prevented us from determining if the USAOs and
EOUSA were in compliance with the record-keeping provisions.

       Similarly, there was an indication in 24 of the 31 case files in our
randomly selected sample that the employee had made a written reply to
the proposed discipline. We were not able to find the written reply for
5 of the 24 cases. There was an indication in 15 of the 31 case files that
the employee made an oral reply.35 However, we were able to find a
written summation of the oral reply or a transcript of the oral reply in
only 4 of these 15 cases. Additionally, according to § 752.203(e)(1) and
§ 752.404(2)(g)(1), the deciding official must consider only the proposal,
the employee reply, and supporting material provided by the proposing
official when rendering a discipline decision (sometimes referred to as the
“four corners of the proposal”). In the 26 case files with decision letters,
we found 3 cases in which it appeared that the deciding official may have
been involved in discussions regarding the misconduct before receiving
the proposal for discipline. Therefore, we could not be certain that the
deciding officials in those three cases considered only the “four corners of
the proposal.”


       35 In some cases, the oral reply is simply a conversation between the employee
and the deciding official. The deciding official may include a summation of the
conversation in the decision letter. Ten of the 31 subjects submitted both an oral and a
written reply.


U.S. Department of Justice                                                           35
Office of the Inspector General
Evaluation and Inspections Division
Implementation

       We were able to analyze the implementation of penalties for only 83
of 138 suspensions and removals due to a lack of documentation in the
case files.36 Troublingly, in the remaining 55 cases – representing
40 percent of the total – we were unable to determine from the case files
if the suspensions or removals called for by the disciplinary process
actually were imposed. In the cases we were able to analyze, we found
that the USAOs and EOUSA were implementing penalties consistently.

        The USAOs and EOUSA are responsible for implementing formal
discipline of suspensions and removals after a decision has been issued.
In cases involving USAO personnel, supervisors (or deciding officials if
not the first-line supervisor) contact the USAO’s Human Resources staff
to issue the standard form requesting the action to the Human
Resources department at EOUSA. The Human Resources department at
EOUSA then processes the form for implementing the action with the
National Finance Center.37 Supervisors have the discretion to determine
when employees will serve their suspension, but removals are effective
immediately upon issuance of the SF-50 (Notice of Personnel Action). We
requested copies of the SF-50s and SF-52s (Request for Personnel Action)
for all employees that received suspensions or were removed during our
study period. EOUSA was able to produce SF-50s and SF-52s for 75 of
the 83 cases. We were able to find implementation information for the
additional eight cases in GCO’s case management system.38

       We analyzed the forms to determine if penalties were implemented,
the timeliness of the implementation, and if there were trends in the data
based on demographic categories. (We present the analysis on timeliness
in the next section of this report.) Again, the documentation in the case
files was sufficient for us to determine if the penalty was imposed in a
total of only 60 percent of the suspension and removal cases – 71 of the
106 suspensions, and 12 of the 32 removals. We did not find trends in
demographic categories for the implementation of penalties.


       36 EOUSA does not capture data on implementation of letters of reprimand.
Therefore, we could not evaluate the implementation of that type of formal discipline.

       37  The National Finance Center is a federal government agency that provides
human resources, financial, and administrative services to over 130 agencies of the
federal government.

       38  GCO can request copies of the forms requesting and implementing the
penalty from the USAOs, but cannot require USAOs to share a copy for the GCO case
file.


U.S. Department of Justice                                                               36
Office of the Inspector General
Evaluation and Inspections Division
       We found that in one-quarter (18 of 71) of the cases in which a
suspension was documented, the subjects were allowed to serve part of
their suspensions on a weekend (most included 1 or 2 weekend days if
the suspensions were short and 4 to 9 weekend days if the suspensions
were longer) or over multiple pay periods.39 This is a form of alternative
discipline that is allowed by the Department and could be reasonable if
imposed for particular reasons appropriate to the case.40 However, it
does raise a risk that penalties will be imposed inconsistently, and we
did not find sufficient documentation to determine whether this form of
alternative discipline was applied consistently. We did not find that
alternative discipline was limited to a certain demographic category or
offense type. We could not evaluate if applying alternative discipline in
this manner in these cases was appropriate.




       39 There were 36 cases where we could not determine if the subject served part
of the suspension over a weekend because of incomplete information on the standard
forms, such as the dates of the suspension.

       40  According to a 2009 Department memorandum, alternative discipline is
corrective action other than traditional discipline, such as attending classes to address
behavior, issuing a public apology to individuals affected by misconduct, serving a
suspension on the weekend or on non-consecutive days, or entering into an agreement
that holds the penalty in abeyance. Alternative discipline is not to be used in all
situations and is determined on a case-by-case basis with advice from offices of general
counsel or legal counsel. The Department states that one of the main benefits is “it can
substantially curtail an employee’s grievance or appeal rights if the employee voluntarily
agrees to waive those rights as a condition of the alternative discipline agreement.”
Department of Justice Memorandum for Human Resources Officers, Alternative
Discipline, January 26, 2009. We found in our review of case files that the USAOs and
EOUSA have employed some of these forms of alternative discipline.


U.S. Department of Justice                                                             37
Office of the Inspector General
Evaluation and Inspections Division
CHAPTER III: TIMELINESS OF DISCIPLINARY PROCESS

The USAOs and EOUSA have no timeliness standards to measure the
performance of the disciplinary process and do not document the
time taken by the process.

       We found that the USAOs and EOUSA are not required to meet
specific timeliness standards for processing misconduct cases. Also, the
lack of documentation in the case files hindered our timeliness analysis.
According to DOJ Order 1200.1, Part 3, and USAM 3-4.752, the USAOs
and EOUSA are required to notify GCO only prior to taking formal
discipline, not when they first become aware of the misconduct.
Therefore, the inquiry or investigation, if any, could take place before or
after consultation with GCO. For all cases reported to GCO and reflected
in its case management system, we were able to evaluate how long the
process took from the time GCO was notified of an allegation to the
disciplinary decision and to the date the case was closed in the GCO case
management system.41 For formal discipline cases with sufficient
documentation, we were also able to evaluate the time from when GCO
was notified of an allegation to the disciplinary decision and the time
from the disciplinary decision to the implementation of the penalty.

Inquiry and Adjudication

      The mean and median from when GCO opened a case in its case
management system to the close of the case for all misconduct cases
during our study period were 175 and 76 days, respectively.42 Figure 2
shows the distribution of all the misconduct cases.




       41 A formal discipline case is closed in the GCO case management system after
adjudication of the case. All other cases are closed based on the discretion of the GCO
attorney and notification of the outcome from the USAO.

       42    The wide differences between the mean and median times can be attributed
to a small number of very lengthy cases that skewed the data. The mean is the
arithmetic average of a set of numbers, and the median is the numeric value separating
the higher half of a set of numbers from the lower half. Both are measures of central
tendency; however, when a dataset has outliers that skew the data, the resulting mean
is artificially high. Therefore, the median provides a better measure of the “average” of
the dataset, and we present both measures in the report.


U.S. Department of Justice                                                            38
Office of the Inspector General
Evaluation and Inspections Division
                               Figure 2: Days from Open to Close for All
                              Misconduct Cases, FY 2009 through FY 2011

                        160
                        140
                        120     Median: 76
      Number of Cases




                        100
                                      Mean: 175
                        80
                        60
                        40
                        20
                         0




                                                    Days


            Source: GCO case management system, OIG analysis.

      We also found that the USAOs and EOUSA took a mean of 139
days and a median of 67 days from notification of GCO to reaching a
decision in formal discipline cases. To place the time taken by the
USAOs and EOUSA to reach a disciplinary decision in perspective, we
compared it to the timeliness standards of Department law enforcement
components we reviewed in the past.43 While this is not an identical
comparison because the USAOs’ and EOUSA’s disciplinary process does
not include a formal investigation, except when conducted by the OIG or
OPR, it is reasonable to expect the USAOs’ and EOUSA’s disciplinary
process to take no longer than the standards of other Department
components. Only misconduct cases resulting in formal discipline go
through adjudication. Therefore, we computed the times of formal
discipline cases from case opened to decision date and found they were
within the range of Department law enforcement components, which
generally have a goal to complete investigations and adjudications within
180 days.44

          The Department law enforcement components whose disciplinary processes
            43

we previously reviewed are the Bureau of Alcohol, Tobacco, Firearms and Explosives;
the Federal Bureau of Prisons; the Drug Enforcement Administration; the Federal
Bureau of Investigation; and the U.S. Marshals Service.

           The EOUSA GCO case management system has a field for “decision date” that
            44

reflects the date that the decision letter or letter of reprimand was issued.


U.S. Department of Justice                                                        39
Office of the Inspector General
Evaluation and Inspections Division
       We found specific characteristics that contribute to the time taken
to complete a case. On average, cases resulting in formal discipline took
longer than cases resulting in informal discipline, and cases involving an
OPR or OIG investigation took longer than those handled exclusively by
EOUSA and the USAOs. The mean and median from open to close for all
cases resulting in formal discipline were 251 and 144 days, respectively.
The mean and median from open to close for informal discipline cases
were 86 and 43 days, respectively. As explained previously, formal
discipline requires specific procedures, consideration of multiple factors,
and a written decision (either a signed letter of reprimand or a decision
letter). Consequently, it is not surprising that the process for addressing
misconduct resulting in formal discipline would require longer
deliberation than cases resulting in informal disciplinary action.

      Another factor contributing to the length of a case is OIG and OPR
involvement. As expected, if the OIG or OPR conducted an investigation,
the time required to complete the disciplinary process increased because
GCO and EOUSA and USAO management wait for the findings and
conclusions of the investigation before considering discipline.45 Fifty-
nine percent of cases not involving the OIG or OPR closed in less than
90 days, compared with 41 percent of cases involving the OIG or OPR.46

      We conclude that while the cases generally appeared to be
completed in a reasonable amount of time, the lack of general timeliness
standards could create a risk of lengthy cases. Protracted cases could
diminish the effectiveness of the discipline imposed or leave innocent
employees under a cloud of suspicion for an unreasonable period.

Implementation

      Due to incomplete information, we were unable to determine the
time between the disciplinary decision and the imposition of the penalty
for 62 of the 138 cases resulting in suspensions and removals.47
However, most disciplinary decisions with sufficient information for


       45  Cases handled exclusively by USAOs and EOUSA had a mean and median of
149 and 68 days from open to close, compared with 240 and 110 days for cases
involving the OIG and 320 and 155 days for cases involving OPR.

       46The difference between the two types of cases diminished as processing times
lengthened, and there were a few very long cases of both types that skewed the data.

       47  While we were able to find SF-50s or information about implementation of
penalties in 83 of 138 cases with suspensions and removals, we were able to compute
timeliness for only 76 of the 138 cases due to a lack of forms or dates in the case files.


U.S. Department of Justice                                                               40
Office of the Inspector General
Evaluation and Inspections Division
analysis were implemented in a timely manner. Most of the removals
were imposed the same day as the decision letter, and most of the
suspensions were imposed within 29 days. Figure 3 shows the
percentage of these suspensions and removals implemented within the
specified time.

        Figure 3: Implementation Length for Suspensions and
                 Removals, FY 2009 through FY 2011

                           5%
                     4%

                7%                                        0-29 days

                                                          30-59 days

                                                          60-89 days
          13%
                                                          120-149 days

                                                          150+ days
                                              71%




          Source: GCO case management system, OIG analysis.

       Additionally, we found that removal decisions were implemented
far more quickly than suspensions. For the 65 out of 106 suspensions
with sufficient information to permit analysis, the mean and median from
decision to implementation were 44 and 19 days, respectively. For the
11 out of 32 removals with sufficient information, the mean and median
for the same timeframe were both less than 1 day. There was no
evidence that certain USAOs implemented penalties any faster than
others or that certain offense types resulted in a longer time to
implement penalties than others.




U.S. Department of Justice                                               41
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


        Overall, we found that some aspects of the USAO and EOUSA
discipline system worked well, but improvement is needed in several
critical areas. There is no complete misconduct case file information
available that includes all documents relevant to the disciplinary
process. GCO has the most extensive information in its case files due to
its legal and advisory role, but it does not have the authority to require
USAO and EOUSA supervisors to share all documents related to a
misconduct case, even when formal discipline has been imposed. Also,
EOUSA has not delegated responsibility or authority for maintaining a
centralized and current misconduct case file and consequently
information and documentation on each misconduct allegation may not
be up to date. Further, inadequate procedures and insufficient data
control requirements, such as the absence of a requirement to update
case information in certain data fields, have resulted in incomplete case
files in GCO’s case management system.

       As a result of incomplete misconduct case files, EOUSA is not able
to easily determine the number of misconduct cases or whether penalties
actually have been implemented. Additionally, GCO attorneys may well
be limited in their searches for case precedents that could assist them in
their advisory function and help ensure consistent outcomes in similar
situations. Overall, these deficiencies hamper EOUSA in its ability to
evaluate the disciplinary process and ensure that discipline decisions are
consistent and reasonable.

      The lack of information and incomplete case files impeded our
evaluation of the four phases of the disciplinary process, and we were
able to only partly assess the system. However, where we were able to
analyze the four phases of the process, we generally found that the
USAOs and EOUSA were appropriately reporting misconduct, conducting
inquiries that did not appear to be unreasonable into the allegations,
consistently adjudicating formal discipline cases, processing misconduct
cases in a timely manner, and producing outcomes that did not appear
to be unreasonable.

      We determined that USAO and EOUSA supervisors were consulting
with, and reporting misconduct to, GCO, even when it was not required
by policy, so as to gain the benefit of GCO’s experience and advice in
such matters. We also found that, based on all the allegations we were
able to review, EOUSA was appropriately referring misconduct
allegations to the OIG and OPR.


U.S. Department of Justice                                              42
Office of the Inspector General
Evaluation and Inspections Division
       While we did find that the extent of misconduct inquiries were
inconsistent within the same offense types, the variation in the collection
of evidence and investigation into the allegations generally was not
unreasonable given the variety of circumstances addressed in the cases.

       We also found that the outcomes of the misconduct allegations
varied substantially within all offense types, except for computer
misuse – pornography and computer misuse – adult images. While most
of the outcomes in misconduct cases varied, where we were able to
evaluate them based on the available records, we generally determined
that the outcomes in these cases were not unreasonable based on the
circumstances of the case or evidence presented.

       Our in-depth review of the computer misuse cases revealed that
the USAOs and EOUSA were consistent in applying formal discipline to
computer misuse – pornography and applying informal penalties for first-
time offenses of computer misuse – adult images. We believe these two
offense types had consistent penalties because the cases were supported
by concrete evidence of misconduct. In addition, EOUSA developed
directives and policy to address these offenses. Further, GCO developed
a table of cases and outcomes specifically for these types of cases to aid
GCO attorneys when advising the USAOs on penalties. We believe that
these factors have contributed to consistent and reasonable penalties for
a very serious type of misconduct.

       Our in-depth review of cases involving allegations of sexual
harassment was hampered by the lack of documentation in many such
cases. This made it difficult to evaluate the inquiries and adjudications,
and whether they were completed within the time period designated by
EOUSA policy for these cases. In addition, in a number of cases, it was
difficult to determine whether the allegations were substantiated because
there was no statement of substantiation or other record of the finding of
the inquiry in many of the case files. In the limited number of these
cases where there was sufficient documentation for us to evaluate the
adjudication in these cases, we did not find the outcomes reached to be
unreasonable based on the facts and circumstances available in the
record. However, the lack of documentation could limit the ability of
EOUSA to use these cases as precedent for future disciplinary decisions.

      Finally, a lack of documentation in the case files also hindered our
analyses of the implementation of penalties and the timeliness of the
disciplinary process. For example, we were unable to determine if
suspensions and removals called for by the disciplinary process actually
were imposed in 40 percent of those cases. However, we were able to
determine for those cases where there were sufficient records that the

U.S. Department of Justice                                              43
Office of the Inspector General
Evaluation and Inspections Division
USAOs and EOUSA generally appeared to be implementing penalties in a
timely manner. Additionally, the USAOs and EOUSA were processing
and adjudicating misconduct cases in times comparable with
Department law enforcement agencies. However, the lack of general
timeliness standards could lead to lengthy cases that diminish the
effectiveness of the discipline or leave innocent employees under a cloud
of suspicion for an unreasonable period.

     To improve the USAO and EOUSA disciplinary process and to help
ensure that disciplinary decisions are consistent and reasonable, we
recommend that:

   1. EOUSA delegate to a person or office the responsibility and
      authority for maintaining a complete and centralized misconduct
      case file with all documentation related to the case, including the
      SF-50, even for individuals who are no longer employed by the
      Department, and a statement indicating the facts that were
      substantiated or a report memorializing the findings of the inquiry.

   2. EOUSA set timeliness goals for the inquiry and adjudication of
      misconduct cases.

   3. GCO establish and implement data controls and procedures for
      data entry in its case management system.

   4. GCO consider maintaining an updated table of case precedents
      with penalties for sexual harassment and other serious and
      commonly occurring offense types, along the lines of that
      developed in computer misuse cases involving pornography and
      adult images.




U.S. Department of Justice                                             44
Office of the Inspector General
Evaluation and Inspections Division
                   APPENDIX I: RELATED OIG REPORTS


      The OIG has completed eight prior reports examining discipline
within the Department of Justice. These eight reports focused
exclusively on the five law enforcement components within the
Department – the Bureau of Alcohol, Tobacco, Firearms and Explosives;
the Drug Enforcement Administration; the Federal Bureau of
Investigation; the Federal Bureau of Prisons; and the U.S. Marshals
Service.

      Review of the United States Marshals Service Discipline Process,
       Evaluation and Inspections Report I-2001-001 (September 2001).

      A Review of Allegations of a Double Standard of Discipline at the
       FBI, Special Report (November 2002).

      A Review of Allegations of a Continuing Double Standard of
       Discipline at the FBI, Special Report (November 2003).

      Review of the Drug Enforcement Administration’s Disciplinary
       System, Evaluation and Inspections Report I-2004-002 (January
       2004).

      Review of the Federal Bureau of Prisons’ Disciplinary System,
       Evaluation and Inspections Report I-2004-008 (September 2004).

      Review of the Bureau of Alcohol, Tobacco, Firearms and Explosives’
       Disciplinary System, Evaluation and Inspections Report I-2005-009
       (September 2005).

      Review of the Federal Bureau of Investigation’s Disciplinary System,
       Evaluation and Inspections Report I-2009-002 (May 2009).

      Review of the USMS Office of Internal Investigations, Evaluation and
       Inspections Report I-2010-003 (March 2010).




U.S. Department of Justice                                                 45
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX II: DOUGLAS FACTORS


       The Merit Systems Protection Board in its landmark decision,
Douglas v. Veterans Administration, 5 M.S.P.R. 280 (1981), established
criteria that supervisors must consider in determining an appropriate
penalty to impose for an act of employee misconduct.

Although not an all-inclusive list, the following factors must be
considered when relevant in determining the severity of the discipline:

 (1)   The nature and seriousness of the offense, and its relation to the
       employee’s duties, position, and responsibilities, including whether
       the offense was intentional or technical or inadvertent, or was
       committed maliciously or for gain, or was frequently repeated;

 (2)   The employee’s job level and type of employment, including
       supervisory or fiduciary role, contacts with the public, and
       prominence of the position;

 (3)   The employee’s past disciplinary record;

 (4)   The employee’s past work record, including length of service,
       performance on the job, ability to get along with fellow workers,
       and dependability;

 (5)   The effect of the offense upon the employee’s ability to perform at a
       satisfactory level and its effect upon supervisors’ confidence in the
       employee’s work ability to perform assigned duties;

 (6)   The consistency of the penalty with those imposed upon other
       employees for the same or similar offenses;

 (7)   The consistency of the penalty with any applicable agency table of
       penalties;

 (8)   The notoriety of the offense or its impact upon the reputation of
       the agency;

 (9)   The clarity with which the employee was on notice of any rules that
       were violated in committing the offense, or had been warned about
       the conduct in question;

 (10) The potential for the employee’s rehabilitation;

U.S. Department of Justice                                                 46
Office of the Inspector General
Evaluation and Inspections Division
 (11) Mitigating circumstances surrounding the offense such as unusual
      job tensions, personality problems, mental impairment,
      harassment, or bad faith, malice or provocation on the part of
      others involved in the matter; and

 (12) The adequacy and effectiveness of alternative sanctions to deter
      such conduct in the future by the employee or others.




U.S. Department of Justice                                               47
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX III: METHODOLOGY


       For this review, the OIG conducted six site visits and interviewed
120 officials and staff at USAOs, EOUSA, EOUSA General Counsel’s
Office, OPR, and the OIG’s Investigations Division. We conducted a
series of analyses to evaluate the consistency, timeliness, and outcomes
of the four phases of the USAOs and EOUSA disciplinary process:
reporting, inquiry or investigation, adjudication, and implementation.
We defined consistency as whether a disciplinary system processed
similar misconduct cases using uniform standards and whether similar
penalties were imposed for similar misconduct. We defined
reasonableness as whether the record as a whole contained sufficient
evidence to allow a reasonable person to support the same conclusion,
even though another reasonable person might have reached a different
conclusion. We also considered whether the processes for investigations
and adjudications were complete and objective. We defined our
evaluation criteria based on the interpretations of these criteria used in
the five previous OIG reports examining Department law enforcement
components’ disciplinary systems.

Cleaning and Normalizing the Misconduct Data

      In response to the OIG request for the number of closed
misconduct allegations reported during our study period, EOUSA
provided a spreadsheet containing various data points from 1,353
Management Employee Relations Matters (MER) closed from FY 2009
through FY 2011. MERs are matters handled by the EOUSA GCO and
include general questions, performance issues, suitability reviews, and
misconduct matters. Many of the data points related to the disciplinary
process were missing, and the OIG could not complete data analysis
without additional information.

       We obtained access to the GCO case management system to review
each MER individually. We wanted to determine which MERs were
misconduct cases and find the information missing from the data fields.
We first reviewed the spreadsheet containing data from the 1,353 MERs
to identify those that were related to misconduct. Every MER contains a
“matter description” field that is designed to provide the reader with a
brief description of what occurred or what was alleged in the case. In
some MERs the “matter description” contained a brief but thorough
account of what occurred, while others contained little information or
only a generic description of the matter. We removed the MERs that
were clearly not related to misconduct, but kept the MERs that had any
mention of misconduct or discipline or that were not clear. This resulted

U.S. Department of Justice                                              48
Office of the Inspector General
Evaluation and Inspections Division
in a list of 671 MERs. We then reviewed each of these 671 MERs in
GCO’s case management system. We read e-mails, notes, and reviewed
documents to identify misconduct cases, and we filled in the blank data
fields in the spreadsheet, or corrected errors, where we could. We also
identified some MERs that contained more than one misconduct case,
and we added those cases to our list. We were able to determine that
563 of the MERs were misconduct cases or included an allegation of
misconduct.

       After assembling the final list of 563 MERs and filling in missing
information in data fields, we had to normalize the data for some fields.48
Charges applied to misconduct allegations are general and may not
adequately describe the conduct to allow for comparisons (for example,
“conduct unbecoming a federal employee”). We created a data field and
normalized the charges into standardized offense categories or types.
This allowed us to better characterize the misconduct, and to make
comparisons across various demographic categories, such as position,
race, and grade level. We also created data fields to better categorize the
cases, such as identifying the cases in which an allegation was not
substantiated, the USAO chose not to discipline an employee, or the
outcome was not clear based on documentation in the case file. We then
completed descriptive statistical analysis of the misconduct case data.

Analysis of Reporting and Referrals

      We interviewed USAO and EOUSA staff and managers specifically
about the reporting of misconduct. We interviewed OIG and OPR officials
about misconduct referrals from USAOs and EOUSA. We also conducted
data analysis to compare cases in the EOUSA GCO case management
system to the list of referrals maintained by the OIG and OPR to
determine if misconduct was appropriately referred.

      To determine whether matters were reported to the OIG, we first
compared an EOUSA referral list with a list of referrals provided by the
OIG’s Investigations Division for our study period. We did the same for
OPR referrals and matched a list provided by EOUSA to a list provided by
OPR. If we could not match a referral, we then reviewed all the e-mails,
notes, and other materials contained in both the misconduct and
investigative matters in the GCO case management system. Generally,
when the OIG or OPR accepts a case and begins an investigation, GCO
opens an investigative matter in its case management system to track the

       48  Normalization is the process of standardizing and organizing values to allow
for easier comparisons and analysis. In this case, we normalized the wide range of
misconduct into more descriptive offense categories.


U.S. Department of Justice                                                            49
Office of the Inspector General
Evaluation and Inspections Division
events or other important information, so a referral could be mentioned
in the MER or the investigative matter.

Analysis of Inquiry and Adjudication

Quantitative Data Analysis

       To evaluate the consistency and reasonableness of USAO and
EOUSA disciplinary decisions, we compared the outcomes of all cases
within offense types. We also analyzed the outcomes of similar offense
types across various demographic categories, including race, gender,
position, and job category. Since the number of cases under each
offense type was often too small to make any conclusion about the
consistency and reasonableness across these categories or across fiscal
years or USAOs, we selected several samples of case files to determine if
inquiry and adjudication phases of the disciplinary process were
reasonable and consistent.

Case File Review

       We selected a series of samples of case files to review USAO and
EOUSA compliance with 5 C.F.R. Part 752 and to evaluate the inquiries
and adjudications for consistency and reasonableness. We also reviewed
all case files of three specific offense types (sexual harassment, computer
misuse – pornography, and computer misuse – adult images) and one
specific outcome (the USAO chose not to employ discipline). We then
reviewed the cases in which subjects had more than one misconduct
allegation in our study period to evaluate the use of progressive
discipline. Each type of case file review is explained below.

       5 C.F.R. § 752.203 and § 752.404-406 – We randomly selected
case files in our study period for which the disciplinary penalty was a
suspension or removal. To select the sample, we first identified the 221
cases that resulted in formal discipline. We then created a list of random
numbers to select 31 case files. To evaluate the case files, we created a
checklist with questions about specific regulatory provisions. We
reviewed the documents in the case files, such as the proposal and
decision letters, e-mail, correspondence, and notes. Based upon the
review of the case files, we answered the questions on the checklist to
determine compliance.

      Level of Inquiry – We selected a random sample of 14 case files to
review the level of inquiry. We followed the same procedures as
described above to randomly select 14 case files from the 371 cases that
ended in formal or informal discipline. We developed a checklist with

U.S. Department of Justice                                              50
Office of the Inspector General
Evaluation and Inspections Division
questions that would aid us in evaluating the level of inquiry. Based on
our review of all the documents contained in the files, we answered the
questions on the checklist and came to a determination.

       Inquiry and Adjudication by Offense Type – We selected six offense
types to obtain a wide range of cases to evaluate the inquiry,
adjudication, and outcomes for consistency and reasonableness. The six
offense types were unprofessional conduct, lack of candor, credit card
misuse, driving under the influence charges, leave abuse/absent without
leave, and disclosure of sensitive information. We selected the case with
the highest penalty, the case with the lowest penalty, and a case in the
mid-range of penalty for each offense type. When a case had unique
circumstances that did not allow for easy comparison within that offense
type, we then selected additional cases to review for a total of 25 case
files. We also took into account whether a case included more than one
charge or offense. We developed a checklist with questions that would
aid us in determining the consistency and reasonableness of the inquiry
and adjudication. Based on our review of all the documents contained in
the file, we answered the questions on the checklist and came to a
determination.

      Sexual Harassment – There were 18 sexual harassment allegations
in our study period. To evaluate the handling of sexual harassment
allegations, we developed a checklist with questions regarding specific
points in the EOUSA policy statement. We also supplemented the
checklist with questions from our inquiry and adjudication analysis to
determine if the penalties imposed were reasonable and consistent. We
reviewed the sexual harassment case files and answered the checklist
questions to make our final determinations.

      Computer Misuse – Pornography and Adult Images – We also
reviewed all of the computer misuse case files in our study period with
allegations of accessing pornography (34 cases) and adult images
(15 cases). Adult images are classified as sexually suggestive material,
such as minimally clothed women, that did not rise to the level of
pornography. We examined all of the notes, e-mails, and documents in
the case files to determine if the outcomes were reasonable and
consistent. We also noted how the computer misuse was detected and if
follow-up computer monitoring and searching were requested, approved,
and conducted when appropriate.

      Progressive Discipline – We analyzed whether the USAOs and
EOUSA employed progressive discipline when imposing penalties against
an employee who had committed previous misconduct. To conduct our
analysis, we reviewed the 563 misconduct cases and identified the

U.S. Department of Justice                                             51
Office of the Inspector General
Evaluation and Inspections Division
subjects that had more than one misconduct allegation in our study
period. Once identified, we reviewed the outcomes in these cases to
determine if USAO and EOUSA supervisors were using progressive
discipline.

Analysis of Implementation

      To determine if suspensions and removals had been implemented
by the USAOs and EOUSA, we reviewed SF-50s, SF-52s, and other
documentation in case files. There were 138 suspensions and removals
in our study period, but we were able to evaluate only 83 of those cases
because of a lack of documentation. For a number of cases, EOUSA
Human Resources was unable to provide us with SF-50s evidencing the
imposition of discipline. For those cases, we reviewed e-mails and other
correspondence in the EOUSA GCO case management system to
determine if the disciplinary penalty was implemented.

Analysis of Timeliness

       After filling in the missing information in the original spreadsheet
of misconduct cases, we created additional data fields to compute times
for different phases of the disciplinary process. We could not compute
times for reporting because that data is not collected by EOUSA or the
USAOs. We were able to compute times for the following: open to close,
open to decision, and proposal letter to decision letter. We then
conducted descriptive statistical analysis, including the mean, median,
mode, maximum time, minimum time, and variance. We identified
outlier cases that took a very long time to close. We next split the data
and conducted descriptive statistical analysis on the different types of
cases, such as those that ended in formal discipline, those that ended in
informal discipline, those that involved the OIG or OPR, and those that
had no such outside involvement. We also analyzed the lengths of time
by other factors, such as USAO and fiscal year, to identify trends or
issues. EOUSA has not established timeliness standards for the
disciplinary process, but we used the Department’s law enforcement
components’ standards to make comparisons.

      We conducted a separate analysis on the length of time between
the disciplinary decision and implementation of discipline. We created a
spreadsheet using information from the OIG’s main datasheet, such as
decision date, outcome, and offense. We then added implementing dates
from the SF-50s to compute times for the implementation of penalty.




U.S. Department of Justice                                               52
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX IV: DATA ON USAO AND EOUSA MISCONDUCT CASES
         AND DISCIPLINE, FY 2009 THROUGH FY 2011


      From FY 2009 through FY 2011, 563 misconduct allegations were
processed against employees of the USAOs and EOUSA:

      221 (39 percent) resulted in formal discipline;
      150 (27 percent) resulted in informal discipline; and
      192 (34 percent) had other results, such as an agreement,
       separating before discipline, or allegations not substantiated.

   The formal discipline actions were as follows:

      83 letters of reprimand;
      106 suspensions, including 5 suspensions combined with an
       agreement and 2 suspensions combined with a demotion; and
      32 removals.

Figure 4 below displays the breakdown of the formal discipline outcomes
for the 221 cases.

                     Figure 4: Formal Discipline Outcomes,
                           FY 2009 through FY 2011
                    14%
               1%
          2%                            38%
                                                Letter of reprimand

                                                Suspension

                                                Suspension and agreement

                                                Suspension and demotion

                                                Removals
           45%



          Source: EOUSA GCO case management system, OIG analysis.

       The informal discipline actions were as follows:

      96 oral counseling or admonishments;
      35 letters of counseling or admonishment;

U.S. Department of Justice                                                 53
Office of the Inspector General
Evaluation and Inspections Division
      16 leave restriction or return to work letters; and
      3 oral counseling combined with letters or training.

Figure 5 below displays the breakdown of the informal discipline
outcomes for the 150 cases.

                 Figure 5: Informal Discipline Outcomes,
                        FY 2009 through FY 2011

                           2%
                 11%
                                                Oral counseling/
                                                admonishment

                                                Letter of admonishment
                                                /counseling

                                                Leave restriction or return
                                                to work letter
          23%
                                                Oral counseling and letter
                                                or training
                                      64%




          Source: EOUSA GCO case management system, OIG analysis.

       The remaining 192 cases had a variety of outcomes, including
cases in which the misconduct allegation was not substantiated, the
subject retired or resigned before discipline, or the allegation resulted in
other action besides discipline. Table 6 presents the outcomes of these
cases.




U.S. Department of Justice                                                    54
Office of the Inspector General
Evaluation and Inspections Division
    Table 6: Other Types of Outcomes of Misconduct Allegations,
                     FY 2009 through FY 2011
                                                                       Number of
 Outcome                                                                  Cases
 Number of cases that resulted in an agreement only*                         23
 Number of resignations/retirements before discipline                        40
 Number of cases in which the USAO did not do anything                       44
 Number of cases in which misconduct allegation was not
 substantiated or no finding from investigation                              33
 Number of cases in which criminal charges were dropped or not filed          8
 Number of cases that resulted in action, but not discipline (for
 example, reassignment, demotion, medical retirement, leave warning,
 computer monitoring)                                                        21
 Number of OIG or OPR cases still open at end of FY 2011                      6
 Number of cases for which outcome was not clear from documents in
 EOUSA database                                                              17
 Total                                                                      192
* Two misconduct allegations were combined for one agreement.
Source: EOUSA GCO case management system, OIG analysis.




U.S. Department of Justice                                                    55
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX V: LIST OF ACRONYMS



AWOL            Absent Without Leave
AUSA            Assistant U.S. Attorney
C.F.R.          Code of Federal Regulations
DOJ             Department of Justice
EEOC            Equal Employment Opportunity Commission
EOUSA           Executive Office for U.S. Attorneys
FBI             Federal Bureau of Investigation
FY              fiscal year
GCO             General Counsel’s Office
ISS             Information Systems Security Staff
MER             Management Employee Relations Matter
MSPB            Merit Systems Protection Board
OPR             Office of Professional Responsibility
OIG             Office of the Inspector General
POC             Point of Contact
PMRU            Professional Misconduct Review Unit
SF-50           Standard Form 50, Notification of Personnel Action
SF-52           Standard Form 52, Request for Personnel Action
USAO            U.S. Attorney’s Office
USAM            U.S. Attorneys’ Manual
USMS            U.S. Marshals Service
U.S.C.          United States Code




U.S. Department of Justice                                           56
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX VI: EOUSA RESPONSE TO DRAFT REPORT




U.S. Department of Justice                             57
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            58
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            59
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            60
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX VII: OIG ANALYSIS OF EOUSA’S RESPONSE


      The Office of the Inspector General provided a draft of this report to
the Executive Office for United States Attorneys for its comment.
EOUSA’s response is included in Appendix VI to this report. The OIG’s
analysis of EOUSA’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1: EOUSA delegate to a person or office the
responsibility and authority for maintaining a complete and centralized
misconduct case file with all documentation related to the case,
including the SF-50, even for individuals who are no longer employed by
the Department, and a statement indicating the facts that were
substantiated or a report memorializing the findings of the inquiry.

       Status: Resolved.

       EOUSA Response: EOUSA concurred with the recommendation
and said that the Director of EOUSA will delegate the authority to the
GCO to collect and maintain a centralized misconduct case file for all
formal disciplinary actions. EOUSA stated that prior to the issuance of
the OIG report, the GCO implemented a requirement that its staff obtain
a copy of the SF-50s from USAOs and that EOUSA document the
implementation of discipline before closing a matter in the GCO
database. EOUSA expects that the new delegation of authority will allow
GCO to obtain final documentation in formal discipline cases. In the
cases where an inquiry does not support formal or informal discipline,
the file should contain sufficient information to assess the manager’s
decision. GCO will evaluate ways in which its staff may better document
management findings in the cases without formal discipline. GCO will
continue its current practice of requesting and maintaining copies of all
issued formal disciplinary actions and SF-50s in its official file.

      OIG Analysis: EOUSA’s planned actions are responsive to this
recommendation. Please provide the OIG with a copy of the
memorandum or directive that delegates the authority to GCO to collect
and maintain a centralized misconduct case file for all formal disciplinary
actions and communicates this authority to the USAOs.




U.S. Department of Justice                                               61
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 2: EOUSA set timeliness goals for the inquiry and
adjudication of misconduct cases.

       Status: Resolved.

       EOUSA Response: EOUSA concurred with this recommendation
and stated that GCO currently uses a chart that lists normal response
times that USAOs and EOUSA can expect from GCO on a series of
matters, including misconduct. The expected response time for
misconduct matters is 30 calendar days from the time management first
contacts GCO. For example, if a USAO wants to issue a reprimand, GCO
will review and complete a final written letter of reprimand with 30 days,
assuming that all relevant information is made available to GCO in a
timely manner. GCO will work to prepare and distribute, as appropriate,
expected timeliness goals for the reporting of and inquiry into the
misconduct, as well as adjudication and implementation of any
discipline.

      OIG Analysis: The actions planned by EOUSA are responsive to
the recommendation. Please provide the OIG with the established
timelines for USAOs and EOUSA to report misconduct, conduct
inquiries, adjudicate the cases, and implement discipline.

Recommendation 3: GCO establish and implement data controls and
procedures for data entry in its case management system.

       Status: Resolved.

      EOUSA Response: EOUSA concurred with this recommendation
and stated that the General Counsel will evaluate whether to include in
each GCO attorney’s performance work plan a critical performance
element requiring accurate and complete documentation for misconduct
matters. The General Counsel will also task the GCO’s database
committee to evaluate how staff may properly and efficiently use
database tools or create new data entry fields to clearly document the
status and outcome of disciplinary matters.

      OIG Analysis: EOUSA’s planned actions are responsive to this
recommendation. Please provide the OIG with the results of the General
Counsel’s evaluation and any changes to GCO attorney performance
work plans regarding documentation of misconduct matters.
Additionally, please provide the OIG with the results of GCO’s database
committee’s evaluation of database tools and a description of any
changes to the GCO database/case management system.


U.S. Department of Justice                                             62
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 4: GCO consider maintaining an updated table of
case precedents with penalties for sexual harassment and other serious
and commonly occurring offense types, along the lines of that developed
in computer misuse cases involving pornography and adult images.

       Status: Resolved.

      EOUSA Response: EOUSA concurred with this recommendation
and GCO will obtain copies of tables of offenses and penalties maintained
by other Department components. EOUSA will consider creating and
maintaining a table of penalties or case precedents for sexual
harassment and other serious, commonly occurring offenses. EOUSA
anticipates this will be a long-term project undertaken by a GCO staff
member.

       OIG Analysis: The actions planned by EOUSA are responsive to
this recommendation. Please provide the OIG with a copy of any table of
penalties or case precedents created.




U.S. Department of Justice                                            63
Office of the Inspector General
Evaluation and Inspections Division
